                                                 EVALUATION




 A NEW HORIZON
 Looking to the Future of the Bureau of Ocean
 Energy Management, Regulation and Enforcement




Report No.: CR-EV-MMS-0015-2010                  December 2010
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                DEC 07 2010
Memorandum

To:            Secretary Salazar

               Mary L. Kendall     L../!/ /'/L->~
                                   G!ne~
From:
               Acting Inspector

Subject:       Evaluation - Outer Continental Shelf (OCS) Oil and Gas Operations
               Report No. CR-EV -MMS-OO 15-20 10

        On May 14, 2010, you requested that the Office ofInspector General (OIG) open an
investigation into then-Minerals Management Service' s (now Bureau of Ocean Energy
Management, Regulation and Enforcement or BOEMRE) performance of its regulatory function,
addressing whether specific deficiencies in MMS policies or practices exist that need to be
addressed to ensure that operations on the Outer Continental Shelf are conducted in a safe
manner protective of human life, health, and the environment.

       Similarly, you requested that the OCS Safety Oversight Board (Board) make
recommendations to improve and strengthen the Department's overall management, regulation,
and oversight of OCS operations.

        Since these requests were so similar in nature, the OIG agreed to lead ajoint team ofOIG
and Energy Reform Team members in collecting and analyzing information. The joint team' s
fieldwork included interviews of more than 140 BOEMRE employees; 2 online surveys sent to
nearly 400 BOEMRE employees; a review of over 2,000 documents, including statutes,
regulations, policies, procedures, and guidance; and a detailed analysis and synthesis of the
information developed from this work.

       The joint team also drafted issue papers with proposed recommendations to advance the
most pressing and pertinent issues that it developed in the course of 9 weeks, ending July 30,
2010. The joint team advanced its draft issue papers to the Board in early August 2010. The
Board issued its report on September 1, 2010.

         This report contains the OIG' s independent view and analysis of many of the same issues
advanced by the Board. It is drafted in the more traditional OIG style, in narrative form,
containing some additional explanatory information than was included in the Board's report. The
OIG worked very closely with the Board in the development of their report. We have made an
effort to follow the general order of the Board' s report, and to avoid any significant deviations in
the language of the recommendations contained in the two reports. This report does, however,
contain nine recommendations that were not included in the Board's report based on additional




                                Office of Inspecto r General I Washington. DC
OIG work. It also eliminates four of the recommendations included in the Board report that were
either covered in other recommendations or not the result of our own work.

        This report also includes the results of the surveys we issued to BOEMRE employees.
We provide the full , unedited survey charts in the final chapter of the report for readers to draw
their own conclusions. We have characterized some of these survey results in various sections of
the report. In our analysis of the survey results, we took the position that employees who
answered "Neutral" could not take a definitive stance on an issue. When we have characterized
survey results that reflect minority opinions, we do so with the support of additional information
gained through interviews. While this might be critiqued as a "glass half full" approach, we
thought it important to point out some of the lesser weaknesses in BOEMRE' s programmatic
operations in order to address and correct them.

          Since this report issues some time after the Board report, we want to clarify several
things:

          1. This report does not raise new issues; rather, it expounds upon those issues identified
             in summary fashion in the Safety Oversight Board report.

          2. The issues we raise are based on the information we were able to assemble in a very
             short period oftime. Our findings are indicators of areas that may warrant further
             review, but they are fully supported by information we developed through interviews,
             surveys, and document requests.

          3. The findings contained in this report are accurate as of the time we completed field
             work. We would expect to have different findings were we to review the same issue
             areas today.

          4. We recognize that many of the recommendations contained in this report are already
             being addressed by BOEMRE. We commend BOEMRE for the seriousness with
             which it took the recommendations and the dispatch with which it is acting upon
             them.

       While we focused on areas in which deficiencies exist, our report is focused on change
and improvement for more accountability, efficiency, and effectiveness in a Bureau fraught with
challenges, but charged with significant responsibilities.

        In the end, we must reiterate the observation contained in the Board report: Overall, the
joint team found the BOEMRE employees it interviewed to be a dedicated, enthusiastic cadre of
professionals who want nothing more than to do their jobs effectively and efficiently and to see
their Bureau reorganize into a robust, high-performing, and respected organization. In that vein,
however, these same employees provided us with ample information about the weaknesses of the
program and operations, as well as suggestions about how they might best be addressed.

       We respectfully request that you provide a written response to this report within 90 days.
Your response should provide information on actions taken or planned to address the


                                                   2
recommendations detailed in this report, target dates, and titles of the officials responsible for
implementation. Please address your response to:

       Ms. Kimberly Elmore
       Assistant Inspector General for Audits, Inspections, and Evaluations
       U. S. Department of the Interior
       Office of Inspector General
       1849 C Street, NW, MS 4428
       Washington, DC 20240




                                                  3
Table of Contents
Executive Summary ................................................................................................ 1
Chapter 1: Permitting .............................................................................................. 3
Chapter 2: Inspections........................................................................................... 10
Chapter 3: Enforcement ........................................................................................ 24
Chapter 4: Environmental and Cultural Resources ............................................... 33
Chapter 5: Enhanced Accident Investigations ...................................................... 38
Chapter 6: Safety................................................................................................... 44
Chapter 7: Employee Survey Responses .............................................................. 52
Appendix 1: Recommendations ............................................................................ 74
Appendix 2: Objective, Scope, and Methodology ................................................ 81
Executive Summary
The tragic loss of life and the economic and environmental damages caused by
the Deepwater Horizon drilling rig disaster and subsequent oil spill turned a
national spotlight on Federal oversight of offshore oil and gas operations. This
event became a catalyst for change, focusing the actions of the Department of the
Interior (Department) on improving safety and oversight of the oil and gas
industry to prevent future accidents.

In May 2010, the Secretary of the Interior (Secretary) requested that the Office of
Inspector General (OIG) open an investigation to determine, among other things,
whether specific deficiencies exist in Minerals Management Service (MMS)
performance of its regulatory function, policies, or practices that need to be
addressed to ensure that operations on the Outer Continental Shelf (OCS) are
conducted in a safe manner protective of human life, health, and the environment.
(MMS has become the Bureau of Ocean Energy Management, Regulation and
Enforcement, or BOEMRE.)

The Secretary also charged the OCS Safety Oversight Board (Board) to make
recommendations to improve and strengthen the Department’s overall
management, regulation, and oversight of OCS operations.

The OIG volunteered to lead a joint effort in collecting and analyzing information
focused on the safety and oversight functions of BOEMRE. Ultimately, 64 OIG
and Departmental Energy Reform Team (ERT) personnel (Joint Team) were
involved in this effort. The OIG advanced its initial findings and
recommendations to the Board in early August 2010. The Board issued its report
on September 1.

The OIG continued its analysis of the information collected during this effort.
This report contains the OIG’s independent view and analysis of, essentially, the
same issues advanced by the Board. It is drafted in the more traditional OIG style,
in narrative form, and contains more explanatory information than was included
in the Board report. As the OIG worked very closely with the Board in the
development of its report, we have made an effort to follow the general order of
the Board report and to avoid any significant deviations in the language of the
recommendations contained in the two reports. This report does, however, contain
nine recommendations that were not included in the Board report based on
additional OIG work; it eliminates four of the recommendations included in the
Board report that were either covered in other recommendations or not the result
of our own work.

Using two online surveys sent to nearly 400 BOEMRE employees, interviews of
more than 140 BOEMRE personnel, review of more than 2,000 documents, and a
detailed data analysis, the OIG addressed issues pertinent to OCS operations
management, regulation, and oversight. We certainly uncovered problems in
                                                                                  1
BOEMRE policies and practices, and survey results illustrate regulatory,
organizational, and managerial weaknesses, in addition to pressures applied by
industry. We found that, although the span of Federal control extends to industry
chiefly through regulations, permitting, and inspections, BOEMRE could benefit
from internal analysis of the appropriate role of industry in its operations. The
development of rules of engagement that govern all agency relationships with
industry would help establish more balance for ensuring operational, safety, and
environmental compliance.

While we concentrated on areas in which deficiencies exist, as requested by the
Secretary, our report focuses on change and improvement for more accountability,
efficiency, and effectiveness in a Bureau fraught with challenges — but charged
with important responsibilities.

In the end, we reiterate the observation contained in the Board report: Overall, the
Joint Team found the BOEMRE employees it interviewed to be a dedicated,
enthusiastic cadre of professionals who want nothing more than to do their jobs
effectively and efficiently and to see their Bureau reorganize into a robust, high-
performing, and respected organization. These same employees, however,
provided us with ample information about the weaknesses of program operations,
as well as with suggestions about how such weaknesses might best be addressed.

Finally, we recognize that BOEMRE has been aware of most of the findings and
recommendations contained in this report for some time. As a result, BOEMRE
has already developed a corrective action plan to address the findings and is in the
process of implementing recommendations. It has made many reforms and
additional improvements are underway. We issue this report not to prolong the
critique but to provide additional, OIG-developed information to assist BOEMRE
in making the most informed decisions possible as it goes forward.




                                                                                    2
Chapter 1: Permitting
Overview
The OIG conducted site visits of the Gulf of Mexico Regional Office and of two
of its district offices, as well as the Pacific Regional Office and its district office.
We interviewed 26 BOEMRE employees who were directly involved with the
permit approval process and found BOEMRE to have been affected by staffing
shortages. These shortages made it difficult for the Bureau to respond to an
increase in Applications for Permit to Modify (APMs), one of the applications
that is part of the permitting process. Further, an absence of BOEMRE policies
and procedures standardization has made consistent actions nearly impossible.

The Gulf of Mexico district offices face two difficult challenges: (1) the volume
and complexity of APMs, as well as departures, which are approvals granted by
appropriate Bureau representatives for operating requirements outside those
specified in regulations and (2) the absence of a standardized review process.
BOEMRE engineers work after hours on a regular, rotational basis to respond to
calls from operators who work on shifts scheduled around-the-clock. These
engineers lack access to computer systems that rapidly display the history of a
particular operator’s activities on the facility, as well as any newly issued APM
for which the operator is requesting approval. This undermines the ability of the
engineer who is working after hours to make decisions based on up-to-date
information. Current staffing levels also are insufficient, requiring mandatory
overtime and increasing the risk of mistakes in the review of APMs.

Slightly different concerns affect the Pacific Region, which has an immediate
need to address succession issues. In this Region, 80 percent of the permit
approval workforce is eligible for retirement within the next 3 years. In fact, one
employee has been eligible since 1997, and two have been eligible since 2009. If
these and other individuals choose to retire, they will leave the Pacific Region
without adequate back-up to conduct required activities skillfully and effectively.

Our interviews also suggest that engineers might be approving departures without
proper justification. Of particular concern are departures for deepwater activity.

Introduction
Oil production activity in the Gulf of Mexico has increased significantly during
the past several years. At the same time, the workforce associated with approving
the day-to-day activities of the oil and gas industry has remained relatively
constant.

Drilling and production permit approval operations are governed by two general
categories of applications, Application for Permit to Drill (APD) and APM.
Together, these encompass nearly all of the well activities on the OCS. APDs
cover initial drilling activities, both of exploratory wells and wells intended for

                                                                                           3
production. APMs apply to production and work-over operations — any
modifications to wells or well equipment after the wells have entered production.
A work-over APM can encompass drilling, maintenance, or replacement.
Engineers at the district level review and approve both permit types.

A primary difference between APDs and APMs is that APDs are reviewed and
approved before drilling operations begin, while APMs can be submitted
throughout the lifecycles of wells. The around-the-clock, shift-based production
operations of the oil and gas industry create situations in which APMs are
regularly submitted to BOEMRE staff for approval after regular working hours.
Industry’s continuous operations schedule has led BOEMRE to make one
approving engineer available at all times.

District offices in the Gulf of Mexico Region maintain after-hours coverage by
requiring engineers to be on call on a rotational basis. The New Orleans District
Office, for example, handles approximately 15 to 20 after-hours calls per week.
Each district office handles such calls by rotating on-call responsibility among the
various senior engineers (GS-13s). These engineers have been issued cell phones
for after-hours or weekend use to respond to operators who are required to notify
the office of any proposed revision to an approved operation.

The Pacific Region’s procedure for after-hours calls involves a 24-hour answering
service that connects operators with an approving engineer. The Region receives
an average of three to four after-hours calls a week.

APDs also may include departures, which are additional requests to allow
activities that may deviate from regulatory requirements or procedures. During
our review of the permit approval process, we considered the use of departures in
APDs. Of the 3,370 APDs approved by the Gulf of Mexico Region since 2005,
675 (20 percent) had at least one approved departure. Overall, the Region
approved 2,414 departures.

Findings and Recommendations
Gulf of Mexico Region Staffing Needs
Increased industry activity and a lack of effective workforce planning have left
many areas in the Bureau vulnerable to staffing issues that may contribute to
increased safety risks. Specifically, industry pressure for more rapid permit
approval has created an environment in which mistakes may be more likely
because overworked engineers are trying to keep pace with increased APM
demand.

In particular, our review of the permit approval process revealed staffing
shortfalls in the Gulf of Mexico New Orleans District. Here, the submission of
APMs outpaces the District’s ability to process them.



                                                                                    4
This situation began with Hurricane Ivan in 2004 and was compounded by
Hurricanes Katrina and Rita in 2005. Hurricane damage to wells required
operators to repair and, in some cases, permanently abandon wells. Each well
activity requires an APM. In the New Orleans District, APMs increased by 71
percent from 1,246 in 2005 to 2,136 in 2009. A BOEMRE employee said this
increase is likely the result of the substantial difference in cost associated with
plugging and abandoning an intact well ($100,000) compared to repairing and
plugging a damaged well ($10 to $15 million dollars). This may have prompted
industry to take preemptive measures by temporarily or permanently plugging and
abandoning wells considered at risk for being damaged by future hurricanes. The
employee also noted the current workload most likely would continue at this or a
higher level for the foreseeable future.

Currently the New Orleans District receives 10 more APMs per week than it has
the capacity to process. The District has a dedicated work-over engineer and a
field engineer who review and approve work-over APMs. The work-over
engineer estimates a current 2-month backlog of reviews, or 400 APMs. This
backlog continues to grow. The current staff cannot keep up with the increased
APM submissions. The engineer also noted that increased scrutiny of APMs after
the Deepwater Horizon incident has exacerbated the backlog.

The short-term solution to the growing backlog has been to assign the work-over
engineer an additional duty hour each day during the week, as well as weekend
hours, in an attempt to catch up with the APM backlog. Because of this increased
responsibility, the engineer is unable to attend training or take authorized leave.
Although all engineers in the office cross-train, they each have too much work to
fill the gap in any other way.

While we have not found any evidence that increased workload has led to
improper application approval, the fatigue incurred by the high-intensity
workload, as well as pressure from operators for shorter review times, creates
conditions where mistakes could become more likely. Such continuing staffing
shortages could lead to significant increases in processing times, employee
burnout, and the possibility of less comprehensive reviews as current employees
attempt to keep pace with demands.

 Recommendation

    1. Review permit staffing needs in the GOM district and regional offices
       to ensure that staffing levels and breadth of expertise are
       commensurate with increasing workloads.




                                                                                  5
Pacific Region Staffing Challenges
The Pacific Region faces a number of staffing challenges related to retirement-
eligible employees, hiring shortages, and workload. For example, six Pacific
Region engineering staff members who process drilling and work-over permits
are eligible for retirement as of January 2011. Another two employees will be
eligible as of 2014. These employees account for 80 percent of the permit
approval staff. Should they choose to retire, the office would lose more than 200
years of combined experience and institutional knowledge.

Further, hiring new staff is a considerable challenge in the Pacific Region due to
increased hiring by the oil and gas industry and a significant industry salary
advantage over Federal service. These factors have enabled industry to attract
highly qualified petroleum engineers, which has limited the number of qualified
applicants available for Federal employment.

The Pacific Region is also the only region without a geographic information
systems (GIS) specialist. The Region has asked both Headquarters and the Gulf of
Mexico Region for assistance with GIS spatial data analysis, management, and
mapping, but neither office has the capacity to assist because of its own staffing
shortages. A geophysicist and a biologist, both eligible for retirement in the
Pacific Region within the next 2 years, are currently performing GIS
responsibilities as a collateral duty. In fact, the Pacific Region’s workforce plan,
dated July 24, 2008, identifies six critical positions that need to be filled.

When interviewed, Pacific Region employees voiced concern that BOEMRE
Headquarters managers may be unaware of their heavy workload. In 2000 and
2001, the Pacific Region completed a detailed work-up of the geophysical
interpretation of a field for the Gulf of Mexico Region. Employees believe that
taking on additional work for another region may have prompted Headquarters to
think that the Pacific Region’s staff has a lighter workload than the Gulf Region’s
staff, when the Pacific Region accomplished this assignment at the expense of
completing its own field studies.

As a result of these staffing challenges, the Pacific Region has not been able to
fully evaluate the extent and location of its energy resources. Regional staff stated
that they should complete more field studies but that they do not have the time or
resources to do so. Due to the lack of field studies, regional staff must rely on
operators’ interpretations of the fields.

 Recommendation

     2. Develop a succession plan for BOEMRE staff in all regions.




                                                                                     6
Limitations on After-hours, On-call Duty Engineers
BOEMRE uses Citrix, an information technology service that enables employees
to access the Bureau’s eWells and Technical Information Management System
(TIMS) databases from remote locations. Due to security concerns, Gulf of
Mexico Region engineers assigned to after-hours, on-call duty have been advised
not to access the eWells and TIMS databases while at off-site locations, although
they are allowed to access their BOEMRE e-mail accounts. The restriction
handicaps engineers because the eWells and TIMS databases provide application
forms and background data that facilitate informed decision-making.

One engineer stated, “It would be a one-time approval. No follow-up because the
operator would have submitted the request via eWells and the engineer could go
into the system, look at the request real time, and approve or deny the approval
immediately.” Another engineer stated that the current process involves writing
down descriptive information and making an educated guess without a technical
drawing: “We do our best to make a reasonable judgment. This usually works
well.” One engineer said he accesses the eWells and TIMS databases when at the
operator’s site using the operator’s computer and stated, “It does not make sense
to be restricted when at home.”

The lack of a standard practice to address operators who “shop around” for
regulatory approval also limits on-call engineers. Gulf of Mexico Region on-call
engineers stated that such operators contact district offices outside their
appropriate jurisdictional area, calling various district engineers assigned to after-
hours duty, to obtain approval for a departure or APM. In one case, an operator
contacted a New Orleans District Office on-call engineer during the drilling
moratorium for a drilling departure but was told to wait until further notice. The
operator then contacted the Houma District Office and received approval. The
operator was subsequently contacted by the New Orleans’ on-call engineer, who
again denied the request for departure. Even though his request had been denied,
the operator continued with the procedure. BOEMRE shut in the subject facility
the next day.

 Recommendations

     3. Develop a comprehensive and current handbook to compile and
        standardize policies and practices designed to assist permit reviewers in
        carrying out their responsibilities.

     4. Review and revise the permit review protocols to ensure that: (a)
        permit requests from operators and district responses are documented
        promptly and properly; (b) BOEMRE engineers have appropriate access
        to permit databases after hours; and (c) procedures are established
        that prevent “engineer shopping” by operators.



                                                                                     7
     5. Reexamine after-hours permit review services, the means by which any
        such services should be provided (e.g., on-call, permanent staff), and
        the feasibility of limiting its use by requiring operators to submit non-
        emergency requests and requests that could be reasonably anticipated
        during normal business hours.


Use of Departures in the Gulf of Mexico Region
We also reviewed the use of departures in the Gulf of Mexico Region. Here, we
found that engineers approved departures without proper justification, including
departures used in deepwater operations. We also found departures had been
approved that circumvented safety requirements, such as delaying the testing of
blind shear rams discussed below. We were unable to determine whether the
alternative procedures provided levels of safety similar to the original
requirements.

The Code of Federal Regulations (Code) defines departures in 30 C.F.R. 250.105
as “approvals granted by the appropriate MMS representative for operating
requirements/procedures other than those specified in the regulations.” The Code
authorizes departures in situations necessary to: maintain well control; properly
develop a lease; conserve natural resources; or protect life, property, or the
marine, coastal, or human environment. In addition, 30 C.F.R. 250.414(h)
requires operators to justify why they are requesting a departure from the
regulations.

We reviewed several departures and found that operators were not including
required justifications for requested departures. We concluded that some
departures had been justifiably approved, based either on American Petroleum
Institute (API) standards or the need to alleviate safety hazards. Conversely, some
departures were not justified based on API standards. Without the required
justification included in a departure’s application, it is not possible to evaluate the
appropriateness of an approval.

We found multiple departures approved to allow function testing of blind shear
rams every 14 days, rather than every 7 days, as mandated by the regulations for
all ram blowout preventers (30 CFR 250.449(h)). We found requests to delay this
testing often due to the position of the drill string across the blind shear ram and
the delay that is involved in moving the drill string to accomplish this test. We
could not determine whether these requests were operationally necessary, or were
made for operational expediency. BOEMRE supervisors expressed some concern
about departures and have at least once called for engineers to “tighten up on all
waivers or exceptions.”




                                                                                      8
Recommendations

  6. Develop procedures for reviewing departure requests that would
     standardize the process and ensure operators justify the requests
     based on concerns for well control; properly developing a lease;
     conserving natural resources; or protecting life, property, or the
     marine, coastal, or human environment. (Not included in Board report)

  7. Reevaluate departures previously or routinely granted to ensure that
     they can be justified according to the criteria for departures. (Not
     included in Board report)




                                                                            9
Chapter 2: Inspections
Overview
Inspectors are an important line of defense for ensuring safety and environmental
protection in offshore oil and gas development. Our review revealed an inspection
program that consists of many experienced, dedicated, and hardworking
employees who conduct important work with very little formal training,
resources, or, in some cases, management support. The Inspections Program lacks
cohesiveness, however, which results in inconsistencies in inspection policies and
practices throughout BOEMRE.

We discovered that the informal structure of the Inspections Program has led to
poor internal communication and weak management support. In addition, we
concluded that BOEMRE could improve the effectiveness of inspections. Poor
workforce planning in the Gulf of Mexico Region has reduced the frequency and
scope of inspections. Performing unannounced inspections, conducting
inspections in two-person teams, witnessing high risk operations, and
modernizing the inspections process could help improve the effectiveness of
inspections.

Furthermore, we found that BOEMRE does not have a formal training and
certification program for its inspectors. Finally, BOEMRE’s policy and
organizational structure leave little opportunity for inspectors to obtain higher
education and career advancement.

Introduction
BOEMRE plays a critical role in ensuring that drilling and production facilities in
Federal waters operate safely and effectively. The OIG assessed the effectiveness
of the Inspections Program in its entirety by reviewing training requirements and
professional development, the inspections statutory and regulatory requirements,
the inspections strategy and processes, and the structure of the Inspections
Program as a whole.

BOEMRE's inspection program workforce, a total of 61 inspectors, is located
within three regional offices: Alaska, Pacific, and Gulf of Mexico. The Gulf of
Mexico Region, where most oil and gas production takes place, currently employs
55 inspectors in five district offices. The Pacific Region employs five inspectors,
and the Alaska Region employs one inspector.

The Outer Continental Shelf Lands Act of 1953 (OCSLA) requires BOEMRE to
conduct scheduled onsite inspections of “all safety equipment designed to prevent
or ameliorate blowouts, fires, spillages, or other major accidents” at least once a
year at each OCS facility. Federal regulations (30 C.F.R. 250.130) state that
inspections are also conducted to verify that operators are conducting operations
in compliance with OCSLA, the regulations, the lease, rights-of-way, the

                                                                                    10
approved exploration plan or development and production plans, and other
applicable laws and regulations. OCSLA also directs BOEMRE to conduct
periodic, unannounced inspections.

In fiscal year (FY) 2009, approximately 3,100 production facilities and
approximately 100 drilling rigs were operating in the Gulf of Mexico. These
numbers compare to just fewer than 3,400 production facilities and about 200
drilling rigs a decade ago.

While a decrease in facilities might imply a reduction in inspections workload,
increased development in deepwater drilling and production, as well as aging
infrastructure, present different challenges to inspectors. The percentage of
drilling rigs in deepwater (depths over 1,000 feet) versus shallow water has
almost doubled from 19 percent in 2000 to 37 percent in 2009. Furthermore, the
oldest operating production facility is 69 years old, while about half of all
production facilities have been operating for at least 20 years. The Pacific Region
has 23 facilities: 22 for production and one for processing. Alaska Region has one
production facility.

The primary focus is on production and drilling inspections. In 2009, the Gulf of
Mexico Region conducted 561 drilling inspections and about 3,300 production
inspections. The Pacific Region conducted 17 drilling inspections and 187
production inspections. The Alaska Region conducted two production inspections.
BOEMRE inspectors also conduct a plethora of other safety and environmental
inspections, such as well work-over, well completion, pipeline, well
abandonment, and production meter inspections.

The Oil Pollution Act of 1990 imposed overlapping duties on the U.S. Coast
Guard and BOEMRE. A memorandum of understanding between these two
agencies defines each agency’s responsibility and provides for BOEMRE to
conduct certain safety inspections on behalf of the U.S. Coast Guard. BOEMRE
also conducts inspections on behalf of the Environmental Protection Agency and
the U.S. Department of Transportation (DOT).

Findings and Recommendations
Inspections Program Structure
BOEMRE’s Inspections Program is not standardized and is poorly defined within
the Bureau. As a result, policies and enforcement mechanisms vary among the
Gulf of Mexico districts and the regions. Currently, no formal process exists to
promote standardization, consistency, and operational efficiency. This informal
structure also contributes to a lack of transparency with regard to inspection
policies and practices throughout BOEMRE.




                                                                                11
Policies, Procedures, and Guidelines
BOEMRE does not have a formal, Bureau-wide compilation of rules, regulations,
policies, or practices pertinent to inspections, nor does it have a comprehensive
handbook that addresses inspectors’ roles and responsibilities. For example,
although the informally acknowledged policy in the Gulf of Mexico is to inspect
drill rigs once a month, we could not locate such a policy.

Some district offices have developed their own checklists and procedures to
supplement the absence of Bureau-wide policies and procedures. Some inspectors
stated that they were not provided copies of the Code and do not receive
notification when a new Notice to Lessee (NTL) is issued. Further, the Potential
Incidents of Noncompliance (PINCs), the national compilation of inspection
checklists, is outdated and insufficient because some of the individual items are
not clearly written, have not kept up with advances in technology, and do not
incorporate all regulations.

The Pacific Region has a more structured program than the Gulf of Mexico
Region, with consolidated policies and practices for the inspectors. The Pacific
Region’s “Offshore Inspection Program Policies and Procedures Document,”
dated February 2010, provides the framework for the Region’s inspection
program.

 Recommendation

     8. Compile a comprehensive and current handbook of all policies and
        practices designed to assist inspectors in carrying out their
        responsibilities.


Internal Communication and Management Support
The absence of a well-defined program structure leaves inspectors with no
effective outlet to elevate concerns or issues encountered in a district office to the
regional offices or Headquarters for review and resolution. Inspectors have few
established channels of communication to share professional and technical
information and concerns, vet common issues and develop solutions, or make
recommendations to management. During interviews, inspectors in some districts
expressed the need for more regular local office meetings to discuss current work-
related issues, such as new management directives and technical issues. In
addition, a number of inspectors expressed the desire to work with other districts
to see how they operate.

A consultant hired by the MMS in 2006 to review organizational effectiveness
recommended that the Bureau establish an internal communication strategy to
unify the organization, enhance employee morale, promote transparency and
visibility, and reduce attrition. The report also stated that ineffective internal
communication could lead to the spread of misinformation, erosion of employee

                                                                                   12
trust and confidence, conflicts between employees and management, and lack of a
coherent and shared vision. Based on interviews and survey information, we
found this recommendation still valid.

Many inspectors expressed the need for more effective leadership in daily
operations and for greater management support when faced with pressure from
industry. For example, 42 percent of inspectors surveyed believe that
Headquarters management does not provide sufficient direction and support, 35
percent surveyed felt that regional management does not provide support, and 33
percent surveyed felt that district management does not provide support.
Moreover, many inspectors across the regions expressed belief that all levels of
management emphasize quantity versus quality when meeting established
inspection goals.

 Recommendations

    9. Develop an inspection program with strong representation at all levels
       of the Bureau. The program should facilitate good intra-agency
       communication in order to promote consistency, effectiveness, and
       efficiency and should provide strong support to the front-line
       inspectors.

    10. Evaluate the advantages of rotating inspectors among districts and
        regions.


Inspection Strategy Effectiveness
BOEMRE has revised its inspections strategy during the past few years to
accomplish more with fewer resources. As a result, the Bureau has not inspected
all facilities annually and has not tested all safety components during each
inspection. While just over half of the inspectors who responded to our survey
said that the inspection program was operating effectively, nearly half could not
say that they believe this to be true. The following sections describe additional
areas of the Inspection Program that are in need of improvement.

Disproportionate Resources
BOEMRE needs a robust, sufficiently staffed inspection program that possesses
the tools necessary to conduct inspections effectively. The Pacific Region
employs five inspectors to inspect 23 production facilities — a ratio of one
inspector for every five facilities. The Gulf of Mexico Region employs 55
inspectors to inspect more than 3,000 production facilities — a ratio of one
inspector for every 55 facilities. About 47 percent of survey respondents stated
that BOEMRE does not have enough personnel to adequately manage the
inspections and enforcement workload.



                                                                                   13
The inspector-to-facility ratio by district office is also disproportionate. In 2009,
the ratio at one district office was one inspector to 53 facilities. Another had one
inspector to 86 facilities. Furthermore, the amount of deepwater activity varied
significantly by district office — in FY 2009, 55 percent of drilling rigs were in
deepwater for one district office, while another had no deepwater drilling activity.
This has led the individual district offices in the Gulf of Mexico Region to
implement new strategies to use available resources more efficiently.

Inspectors also have collateral duties, such as conducting accident investigations,
in addition to the various types of inspections they are required to perform. These
inspectors, however, often lack the necessary experience, training, or time to
fulfill these collateral duties in addition to their inspection responsibilities.
Inspectors are also responsible for developing a case if inspection results require a
civil penalty and for providing support for the civil penalty reviewing official.

BOEMRE reviews and updates position needs, but a recent strategic human
capital management plan for the Gulf of Mexico Region showed that the focus of
hiring has been on engineers and geosciences disciplines. Inspectors were not
included on the workforce gap analysis performed for the Bureau-wide human
capital plan. In the plan, inspectors were not identified as mission-critical, yet
support-related positions, such as contracting specialists, human resources
specialists, and information technology specialists, were considered mission-
critical. We also identified concerns related to the aging inspector workforce.
According to the human capital plan for the Gulf of Mexico, 40 percent of
inspectors are eligible to retire in the next 5 years.

 Recommendation

     11. BOEMRE should undertake comprehensive workforce and workload
         analysis of the inspection program, including succession planning,
         anticipated workload needs, and increased capacity, and implement
         appropriate recommendations.


Risk-based Strategy and Production Inspection Sampling
The OCSLA requires BOEMRE to inspect all offshore facilities once a year. In
2008, BOEMRE implemented a pilot program at two district offices to inspect
offshore facilities based on a determination of high-risk and low-risk facilities.
These offices inspected high-risk facilities each year but inspected low-risk
facilities only every other year. The determination of low risk was primarily based
on minimal production volume of the facility. One district office, for example,
considered 38 percent of the total production facilities as low risk.

This strategy allowed BOEMRE to focus its limited resources on re-inspection of
high-risk operations and poor performers. In March 2009, BOEMRE reported that
the risk-based strategy reduced the inspection frequency from a 13-month interval

                                                                                  14
in the Houma District Office and a 15-month interval in the Lake Jackson District
Office to a 10-month inspection interval. BOEMRE stated that the reduced time
to complete required inspections allowed for more re-inspections and more meter
inspections.

To fulfill the annual inspection requirement, BOEMRE intended to rely on the
operators to self-inspect the low-risk facilities that BOEMRE inspected only
every other year. We found, however, that BOEMRE did not require operators to
submit self-inspections of those facilities that did not receive an annual BOEMRE
inspection.

BOEMRE also conducted production inspections by using a sampling
methodology at three district offices as another approach to use resources more
efficiently. This method allows random selection of the safety components to test
during a production inspection in place of 100 percent testing on all devices. If a
sampled component failed during an inspection, the inspector would move to the
next testing tier, which includes more sampled device testing. The inspector may
decide at any time to conduct a complete production inspection. The sample
inspections are conducted on high-risk facilities annually for 3 years. In the fourth
year, a complete production inspection is required. Low-risk facilities receive
sample inspections every other year for three inspection cycles. On the fourth
inspection, which is performed in the eighth year in the cycle, a complete
inspection is done.

Gulf of Mexico Region employees repeatedly told us during interviews that
BOEMRE needs to conduct more inspections rather than fewer. On at least two
occasions, managers observed that the number of inspections conducted should
increase based on risk rather than decrease. In addition, many district office
inspectors who use the sampling methodology stated that, in many cases, the
methodology actually decreased rather than increased the efficiency of the
inspection.

In contrast, inspector presence is more prevalent in the Pacific Region. In addition
to conducting the required annual inspection, the Pacific Region also conducts
unannounced partial production inspections every other month on each facility.
The Pacific Region also conducts Focused Facility Reviews (FFRs) on three
production facilities a year to complement the complete and partial production
inspections. FFRs cover all aspects of platform operations and management from
a systemic perspective and concentrate on areas such as facility condition, safety
systems, environmental aspects, documents, and electrical systems.




                                                                                  15
 Recommendation

     12. Revisit the inspection strategy to identify sufficient inspection coverage,
         including reassessing the risk-based and self-inspection approaches.
         (Not included in Board report)


Unannounced Inspections
Ninety-four percent of inspectors responding to the survey identified a critical
need for more unannounced inspections. Unannounced inspections are rare in the
Gulf of Mexico. In FY 2009, less than 3 percent of the total inspections performed
were unannounced inspections in the Gulf. One district office reported conducting
no unannounced inspections, while another identified only one. In the Pacific
Region, however, 92 percent of inspections were unannounced.

In the Gulf of Mexico, such inspections are limited by U.S. Coast Guard security
restrictions on MARSEC facilities, those facilities that are required to maintain a
Maritime Security plan. District offices are required to give 24-hour notice prior
to conducting an inspection on these facilities. A 2005 internal directive instructed
that facilities must receive a 20-minute, followed by a 5-minute, notification prior
to an inspection.

The definition of unannounced inspections and the conditions under which they
are conducted also varied from office to office and even within an office. For
example, in one district office, one inspector stated that only announced
inspections are performed, while another stated that he primarily performs
unannounced inspections. Others interviewed stated that the requirements for
helicopter pilots to call ahead before landing precludes unannounced inspections.
We identified documents, among them an official 2007 MMS policy, that indicate
special notification arrangements with certain companies.

 Recommendation

     13. Clarify the criteria for what constitutes unannounced inspections.
         Review and clarify the current policies under which unannounced
         inspections can be performed, including the U.S. Coast Guard MARSEC
         restrictions, and special notification arrangements with certain
         companies, so that unannounced inspections can be conducted to the
         greatest extent practicable.


Witnessing Operations
BOEMRE inspectors currently witness operations only if operations are ongoing
at the time of their inspections. At such times, inspectors observe the ongoing
operations, such as construction, welding, or crane activities, to ensure that they
are performed safely for all personnel, as well as the environment. If inspectors
                                                                                  16
note unsafe conditions, they can issue INCs and even terminate operations until
conditions have improved.

We learned that, in some cases, operators would suspend operations until the
inspector leaves the platform to avoid possible INCs. Operators are not required
to give advance notice to BOEMRE of certain key operations that inspectors must
observe to ensure safety and compliance with all regulations. BOEMRE
employees identified critical operations, to include blowout preventer (BOP)
hook-ups and testing, marine riser disconnect operations and testing, well work-
over/completion operations, and abandonment operations. Some operations, such
as the BOP testing, could take more than a day.

 Recommendations

    14. Identify critical operations conducted on all BOEMRE regulated
        facilities, and require that operators notify the Bureau about the timing
        of these operations so that inspectors can view operations first hand to
        the greatest extent practicable.

    15. Examine the viability of performing multi-day inspections of critical
        operations on rigs and platforms.


Inspection Teams
In 2009, individual inspectors conducted 41 percent of inspections in the Gulf of
Mexico and 86 percent in the Pacific Region. Most inspectors interviewed agreed
that two-person teams would increase efficiencies, eliminate reliance on an
operator representative for observations on safety tests, improve the thoroughness
of the inspection, and reduce the ability of operators to successfully pressure an
inspector not to issue an INC. During interviews, inspectors also stated that
working in teams would protect inspectors from operators making false
accusations. In one such case, an inspector was accused of disengaging a safety
device.

 Recommendation

    16. Evaluate the advantages of conducting inspections in two-person teams
        instead of individually.


Inspection Planning
Several inspectors reported that failure to conduct adequate advance planning for
inspections leads to inefficient scheduling of personnel and resources. Some
district offices had very little long-term inspection planning, and many inspectors
did not know which facility they would be inspecting until the day before or the

                                                                                  17
day of the inspection. This does not give an inspector enough time to properly
plan, which would include obtaining the prior inspection history of the facility
and any previous INCs.

Proper planning would also ensure appropriate rotation of inspectors and
eliminate conflicts of interest. In addition, the lack of proper planning affects the
efficient use of resources. For example, inspectors may travel to one facility more
often than needed due to helicopter schedules, or they may find it difficult to
coordinate a ride to a deepwater facility when traveling with others conducting
inspections closer to shore. One district office noted that production inspections
have priority over drilling inspections when it comes to helicopter planning.

 Recommendation

     17. Conduct advanced planning of inspections to allow inspectors time to
         prepare for each inspection and ensure efficient use of resources. (Not
         included in Board report)


Technology
The Pacific Region’s inspectors have laptop computers for easy access to
regulations, standards, and inspection forms and for purposes of entering and
tracking data while they are in the field. These inspectors also use their laptops
during on-site inspections to complete forms electronically and print them out for
data entry. Gulf of Mexico Region inspectors do not have this capacity.
Inspections in the Gulf are still conducted on paper and manually entered into the
TIMS database.

Many inspectors stated TIMS is not user friendly, requires manual processes, can
be difficult to access, and contains some unreliable data. Further, inspectors noted
that inspection forms are not adequate and do not reflect newer technology. On
the drilling inspection form, for example, inspectors have no place to document
safety device testing and so must write test results in the “Remarks” section of the
form.

In addition, a substantial amount of on-site inspection time is used to review
operator reports to ensure that the operator conducts and has support for all of the
required safety tests, inspections, and training. Some production inspections may
require up to 34 report reviews. Some operators provide these reports online,
which allows inspectors the option of reviewing them in the office and not during
the actual inspection. Although this practice may not be used extensively across
all district offices, more consistent use could increase work productivity,
especially when poor weather conditions restrict on-site inspections.




                                                                                   18
 Recommendations

    18. Analyze the benefits of obtaining electronic access to real-time data
        transmitted from offshore platforms/drilling rigs, such as operators'
        surveillance cameras and BOP monitoring systems, and/or other
        automated control and monitoring systems to provide BOEMRE with
        additional oversight tools.

    19. Update all inspection forms to ensure they reflect all aspects of the
        inspection and accurately reflect new technology. (Not included in
        Board report)

    20. Analyze ways to perform inspection activities more efficiently by using
        current technological tools, such as online review of reports and
        records, and by using mobile technology in the field.

    21. Information technology systems should be considered within the
        context of the reorganization. Specifically, BOEMRE should examine
        whether TIMS can be upgraded to meet business requirements and
        address user performance concerns by leveraging more current, web-
        based, user-friendly technologies together with existing tools already
        within the Department. BOEMRE should carefully consider factors such
        as speed, performance requirements, and cost-effectiveness.


Training and Professional Development
New BOEMRE inspectors come into the inspection program primarily through
informal, on-the-job training that is provided by experienced inspectors. The
Bureau does not have a formal training or certification program, so it tends to
look for new inspectors who already have experience, which is usually gained
through prior work in the oil and gas industry. This presents challenges to the
Bureau in terms of recruiting and retaining the most qualified inspectors, as well
as to individuals, who could face unique ethical situations as new regulators.

Inspector Certification
Based on survey results, only 39 percent of inspectors believe that they have
received sufficient training to perform their duties effectively. Through interviews
and the online survey, most of the training that inspectors receive is mainly on-
the-job training or training provided by industry. The training provided does not
effectively teach inspectors how to perform an inspection, and inspectors often
fall short on knowledge related to new technologies. Some inspectors also noted
that they rely on industry representatives to explain the technology on a facility.
One survey respondent commented that BOEMRE needs a standardized training
program “so that rules and laws are not left up to opinion so often.”



                                                                                  19
An Inspector Training Update from 1994 states that BOEMRE authorizes 60
hours of training every 2 years for individual inspectors. Discussions with
inspectors, however, indicate that training requests are often denied. Moreover,
training that is offered is not always deemed particularly valuable. For example,
some inspectors expressed concern that industry classroom training discloses how
operators “want it, instead of how it should be,” and that training is often geared
toward engineers, rather than inspectors.

Furthermore, the amount of time and the structure of on-the-job training varied
from office to office and from inspector to inspector. Inspectors may conduct
inspections on their own based on office policy or the recommendation of the
training inspector. This could range anywhere from 2 months to 2.5 years. This
process could lead to inconsistent inspections procedures, since on-the-job
training also varies depending on the expertise of the training inspector.

In contrast, the Bureau of Land Management (BLM) has an inspector certification
program that combines classroom instruction and on-the-job experience. A formal
technical review (an examination) is required of each inspector in order to obtain
certification. The BLM training program consists of four phases. The first phase
requires 6 to 8 months of on-the-job training. The second phase incorporates
formal classroom training, which involves six modules that cover information
specific to the BLM Inspection and Enforcement Program. In the third phase,
students continue on-the-job training until they are certified by a formal technical
review — the fourth phase. The entire process can take more than 1 year.
Inspectors are required to take refresher training every 5 years following
certification. One BOEMRE inspector commented that by going through the
BLM certification program in 2008, the inspector “learned more in that 1 year
than in 9 years with MMS.”

 Recommendations

     22. Implement a Bureau-wide certificate or accreditation program for
         inspectors. Consider partnering with BLM and its National Training
         Center to establish a Department oil and gas inspection certification
         program, with training modules appropriate to the offshore
         environment as needed.

     23. Develop a standardized training program similar to other Department
         bureaus to ensure that inspectors are knowledgeable in all pertinent
         regulations, policies, and procedures. Ensure that annual training keeps
         inspectors up-to-date on new technology, policies, and procedures.


Inspector Specialization
For the past 15 years, inspectors received cross-training on all types of
inspections. Previously, inspectors received specialized training in drilling or

                                                                                   20
production facilities, and the district offices employed supervisory and lead
inspectors in each discipline. This shift occurred with the creation of the GS-1801,
inspector (offshore operations and safety) series. A draft training plan covering
five core training modules and five areas of operations appears to have been
proposed but not implemented.

Many current BOEMRE inspectors agreed that receiving training and conducting
work in all inspection areas is beneficial and provides back-up within field
offices, but they believe that having experts in the various types of inspections is
also practical, efficient, and would lead to more effective inspections. Also, the
rapidity of technological advances and the complex nature of deepwater
operations indicate a need to increase the expertise in this area. Many inspections
performed by BOEMRE are complex and require extensive knowledge, so
specialization seems warranted.

 Recommendation

     24. Consider developing more subject matter experts in each of the
         various types of inspections within district offices.


Recruiting and Retaining Inspectors
BOEMRE does not have a formal program for recruiting and retaining the most
qualified personnel. The disparity between industry and Federal salaries, as
reported by BOEMRE staff, limit the number of qualified applicants. Some areas
we identified that limit BOEMRE in the recruitment and retention of inspectors
include:

   •   Inspectors are not considered for the Student Loan Repayment Program
       because Bureau management has determined that the inspector position is
       not difficult to fill. This Program could provide inspectors incentive to
       obtain higher education and improve their skills, as well as increase their
       opportunity for promotion.
   •   Inspectors do not have a well-defined career ladder within the Bureau.
       Currently, full performance for an inspector is at the GS-11 grade within a
       district office. Gulf of Mexico district offices each have one lead inspector
       and one supervisory inspector, with performance grades of GS-12 and GS-
       13, respectively. The Pacific Region employs only one supervisory
       inspector. Inspectors do not have promotion potential above the district
       office, nor do they have opportunities to move into related positions at
       higher grades or levels of the organization.
   •   BOEMRE inspectors may qualify for a 25 percent differential for work
       they perform under hazardous conditions, such as exposure to explosive
       incendiary materials and hazardous weather or terrain. The pay differential
       would allow BOEMRE to be more competitive with industry.


                                                                                  21
 Recommendations

    25. Expand, to the greatest extent practicable, the sources from which
        BOEMRE draws inspector applicants and identify incentives to recruit
        and retain inspectors. Reevaluate whether inspectors can participate in
        the Student Loan Repayment Program and are eligible for hazard pay.

    26. Develop Individual Development Plans for inspectors designed to
        achieve career advancement strategies. Such strategies should promote
        sound succession planning and foster employee development and
        satisfaction.


Unique Challenges
Most inspectors who responded to the survey reported receiving ethics training.
Unique circumstances exist in the Gulf of Mexico, however, because many people
are, or have been, a part of the oil and gas community. Several people we
interviewed indicated that inspectors likely have worked in industry or have
family members in the industry. For example, one inspector reported arriving at a
facility where his brother, who worked for the operator elsewhere, was flown to
the facility to act as the compliance officer. The inspector informed the company
that he could not conduct the inspection with his brother present. Another person
worked with the inspector that day.

Some inspectors told us that industry often exerts pressure on inspectors to
minimize reporting violations during inspections. For example, facility personnel
may make comments, such as “there goes my bonus” or “my wife is sick, and I’ll
lose my job,” to deter inspectors from issuing violations. We also learned that
operators frequently appeal INCs once they are reported.

 Recommendations

    27. Develop and implement clear rules of engagement for operations that
        are transparent to all entities, including both BOEMRE and industry
        personnel, particularly relating to industry exerting pressure on
        inspectors.

    28. Further develop ethics rules and training that reflect the unique
        circumstances of working in BOEMRE, with opportunities for questions
        and discussions.




                                                                               22
29. Require inspectors to disclose relationships and previous employment
    with industry on a form similar to a financial disclosure form that is
    updated as conditions change or at least annually. (Not included in
    Board report)

30. Ensure that BOEMRE managers support and enforce established rules
    of engagement and ethics rules.




                                                                             23
Chapter 3: Enforcement
Overview
BOEMRE is charged with inspecting oil and gas industry platforms. Inspectors
review activities on these platforms for safety and for compliance with Federal
regulations and guidance. When inspectors find an infraction, they issue an INC, a
formal written notification of an operator’s noncompliance with a specific
regulation, with lease or permit terms, or with the requirement of any notice or
order. These documents generally have no fine attached and chiefly require that
the item be fixed or brought into compliance.

Consequences resulting from INCs are minimal unless the problem is significant.
Our survey results and interviews with inspectors disclosed that operators are
sometimes slow to correct identified problems or manipulate the system so as to
work around the INC.

Even assessments of civil penalties that result from more serious situations do not
serve as particularly effective deterrents. The Oil Pollution Act of 1990 provides
the Secretary with authority to assess a civil penalty without regard to time for
taking corrective action. Regulations incorporating civil penalty provisions were
published by MMS on August 8, 1997. Such penalties cost industry less overall
than would the amount of time required to stop production to fix the infraction.

In extensive interviews and surveys, BOEMRE inspectors and other staff said that
strengthening enforcement could help ensure that BOEMRE inspectors play a
more effective role in enforcing safety compliance by the industry. Our research
suggests that a review and revision of civil penalties, the development of strong
incentives that encourage operator compliance, and increased application of
seldom-used compliance tools would help to revitalize enforcement actions to
improve safety in OCS operations.

Introduction
As the primary agency responsible for ensuring that oil and gas companies
operating in the OCS comply with pertinent Federal regulations, BOEMRE plays
a critical role in safeguarding the environment and in ensuring that production and
drilling operations are conducted safely. Interviewees shared their observations of
areas that present challenges for inspectors trying to enforce regulations and carry
out Bureau guidance. One respondent noted, “The strengths of the [enforcement]
program are the people that carry it out. Accordingly, lack of resources or lack of
will among those people create weaknesses in the program.”

To enforce compliance with BOEMRE’s safety requirements in the OCS, the
Bureau issues INCs and assesses civil penalties. The three types of enforcement
actions associated with an INC are (1) warnings, (2) component shut-ins, and (3)
facility shut-ins. Warnings are issued for infractions that pose no immediate

                                                                                 24
danger to personnel or equipment. For example, a warning may result from an
operator’s failure to properly maintain records and may require the operator to
self-report a plan for corrective action or to identify the corrective action taken
within a 14-day limit.

Component shut-ins are issued for malfunctioning equipment that poses an
immediate danger to personnel or to other equipment without affecting the overall
safety of the facility. These require a shut-down of the equipment until it can be
repaired, which, depending on the equipment, can strain an active production
facility.

Lastly, INCs result in facility shut-ins — when malfunctioning equipment cannot
be shut down without affecting the overall safety of the facility. Both component
shut-ins and facility shut-ins take effect immediately upon issuance and remain in
effect until the operator reports that the violations have been corrected.

Civil penalties may be assessed for violations that cause injury, death, or
environmental damage, or that pose a threat to human life or the environment.
The OCSLA and the Code provide that civil penalties may be assessed for any
failure to comply with the law or with any lease, license, permit, regulation, or
order issued pursuant to the law. Violations for non-functioning safety devices
bring an immediate civil penalty assessment. Other violations must be referred by
the inspector or reviewing supervisor to determine whether a civil penalty is
warranted.

Civil penalties are capped by statute at $35,000 per violation per day but can be
adjusted based on the severity of the violation, civil penalty case history, record of
compliance, or precedents set by similar cases. BOEMRE reviews civil penalty
fines for proposed adjustment every 3 years based on the consumer price index.
Civil penalties remained unchanged in 2009 after the civil penalty review.

Findings and Recommendations
INCs as Enforcement Tool
Inspectors can cite offshore oil and gas operations for 827 types of infractions or
PINCs. INC violations do not have fines associated with them unless they qualify
for and are processed as civil penalties. BOEMRE employees reported that
operators regarded the mere issuance of an INC as an effective tool to alter
behavior, given the perception that INCs blemish a company’s operations record
and public image.




                                                                                      25
Figure 1. Number of INCs issued by year throughout the Bureau.

One survey respondent noted, however, that “INCs don’t carry any penalty other
than shame, something some companies don’t have and therefore don’t care.”
This is reflected in the number of INCs issued to certain companies. During the
last 5 years, one company was issued 1,171 INCs. BOEMRE cannot sanction
repeat offenders except through the civil penalty process unless a fine is
associated with the INC. If there is no consequence associated with the INC, such
as notification to the public of INCs issued, the company does not have an
incentive to alter its behavior.

Over the past 5 years in the OCS, the highest number of INCs issued was in 2006
(2,723) and the lowest in 2008 (1,704). The most frequently used INC was G-111,
a violation for equipment that is not maintained in a safe condition. G-111 INCs
were issued 1,807 times. There was a broad difference in the INC issuance
activity between district offices in the Gulf of Mexico during the past 5 years. The
New Orleans District Office issued between 387 (2006) and 480 (2009), a
difference of 93 (25 percent) between the most and least INCs issued. The
Lafayette District had a difference of 418 INCs (a decrease of 53 percent), with
the most issued in 2006 (788 INCs) and the least issued in 2008 (370 INCs).




                                                                                 26
                               INCs Issued 2005-2009




Figure 2. INCs issued by district office between 2005-2009.

If an operator does not correct the violation or ask for an extension or INC
rescission, the Bureau may pursue additional enforcement action. Typically, the
Bureau issues another INC to the operator for failing to correct the violation,
which restarts the period to correct the problem. The failure to correct can lead to
a civil penalty. If the operator remains noncompliant, the Bureau can suspend
operations on the rig or platform until the violation is corrected.

Operators may appeal to a BOEMRE district manager to request that an INC be
rescinded. A number of inspectors felt they received insufficient support from
management and that, in some cases, management sided with industry when INCs
were questioned. According to interviews and survey comments, some offices
have social environments that are not conducive to issuing INCs. For example,
inspectors who issue a large number of INCs reported being subject to industry
pressure, often without sufficient management support to back them up, while
inspectors who do not issue many INCs do not experience the same pressure.

In 2009, 19 percent of inspections in the Gulf of Mexico resulted in at least one
INC. Lake Jackson issued INCs for 38 percent of its inspections in 2009. The
lowest percent of issued INCs in 2009 occurred at Lake Charles with 15 percent.




                                                                                  27
             Percent of Inspections in 2009 Resulting in at
                            Least One INC

                                                       38%
       40%
       35%
       30%
       25%          18%        17%         15%                     17%
       20%
       15%
       10%
        5%
        0%
                Houma      Lafayette      Lake        Lake        New
                Count        Count      Charles     Jackson     Orleans
                                         Count       Count       Count

Figure 3. Percentage of inspections in 2009 that resulted in issuance of an INC.

 Recommendations

     31. Reevaluate the full range of enforcement actions, including INCs, civil
         penalties, and lease suspensions and cancellations to determine
         whether enforcement actions deter violations. For example, BOEMRE
         should consider sanctions for repeat offenders.

     32. Ensure that inspectors have the appropriate technology, resources, and
         management support for the issuance and defense of INCs.

     33. Evaluate INCs to determine which, if any, are appropriate for an
         automatic assessment of a fine and how much the fine should be.
         BOEMRE’s evaluation could be informed by a review of other
         regulatory agencies.

     34. Develop a public notification policy for INCs issued.


Civil Penalty Fines Matrix
We found that the civil penalty process is lengthy and that penalties are
considered insufficient and inappropriate to the severity of violations. A
successful civil penalty charge occurs only after the BOEMRE district office
gathers documentation (60 days), then determines whether to move forward (60
days). BOEMRE allows another 90 days for the regional reviewing officer to
consider the charges. It then notifies the company, which results in payment or a
scheduled meeting 30 days later. Following the meeting, BOEMRE reviews any


                                                                                   28
additional information provided by the company, then makes a final decision.
Once this occurs, the company has 60 days to pay or to appeal.

Overall, this process takes a year, which may increase if the company files an
appeal. One reason cited for the lack of civil penalty cases was the scant
documentation provided by inspectors. Of the civil penalties issued in 2009 and
2010, the average processing time was 13 months. The longest penalty phase
required 57 months to complete. During the past 5 years, only 154 cases have
resulted in collected penalties.

In an environment where many operators pay between $500,000 and $1 million
daily to run a Gulf of Mexico facility, more than one-third of inspectors surveyed
do not believe that current enforcement penalties are sufficient. Of the 2,298 INCs
issued in 2009, only 87 were referred to the civil penalty process, with only 20
resulting in civil penalty collections. In 2009, BOEMRE collected $919,000 in
civil penalties, far less than the cost of a 1-day shut-in for a larger facility.




Figure 4. Civil penalty cases collected by year.

According to interviewees, current levels of civil penalty fines may not
appropriately reflect the severity of the violations. One inspector noted that a
company received an $800,000 fine for an infraction where the threat of serious
harm had existed over multiple days. On the other hand, if a death had occurred
suddenly and was categorized as a 1-day event, it would have warranted penalties
of no more than $35,000 (a per-violation charge), which demonstrates the
inequities of the current civil penalty fine matrix.

 Currently, shut-ins (either component or facility shut-ins) may be the most
effective tool available to address violations. They are being more effective than
civil penalties because lost operating costs are more immediate and significantly
greater than the maximum amounts of civil penalties. Of the 2,298 INCs issued in

                                                                                  29
the Gulf of Mexico in 2009, 121 facility shut-ins occurred, even though 1,030
INCs were eligible.

 Recommendations

     35. Review the civil penalty process to determine whether a civil penalty
         case can be completed effectively in less than the nearly one-year time
         period now afforded to assess a civil penalty.

     36. Evaluate the rates and the structure of the civil penalty program and, if
         necessary, initiate the legislative or rulemaking process to ensure that
         penalties are appropriately tied to the severity of the violation.

     37. Evaluate the use of facility shut-in authority to ensure its appropriate
         and effective utilization.


Follow-up
The number of follow-up inspections has declined by half since 2005 with 103
follow-up inspections conducted. In 2008, however, only 45 were conducted.




Figure 5. Follow-up inspections conducted between 2005-2009.

Currently the INC issuance system is a paper process. An inspector issuing an
INC has four copies (white, green, yellow, and blue). The inspector keeps the
white copy and leaves the other three with the operator. The yellow copy is for the
operator to keep. The blue copy goes to the contractor and the green copy
ultimately is returned to BOEMRE once the violation has been corrected. The
green copy, which the operator signs to certify that the violations have been
corrected, does not require operators to certify under penalty of perjury that all
information submitted to the Bureau is accurate.



                                                                                    30
If an inspector has called for a facility or component shut-in, the operator has to
notify the issuing BOEMRE office that corrections have been made before
operations can return to normal. Some operators send in additional information,
although BOEMRE has no requirement for them to do so. According to a
memorandum issued in 1998, returning a component or facility to service requires
the operator to contact the chief [supervisory] inspector or the district supervisor.
If neither is available, any of the engineering staff are permitted to grant approval
on their behalf.

Operators with poor compliance records can be added to the Monthly Operator
Compliance (MOC) Report. Once an operator, facility, or platform is placed on
the report, BOEMRE initiates an inspection cycle that allows no more than 4
months between inspections. As a result of being added to the MOC report, the
company will be inspected at least every 4 months until it is in compliance,
instead of only being subject to the annual inspection.

Of 4,892 inspections, which resulted in 2,298 INCs in 2009, there were only 50
documented follow-up inspections to ensure compliance. This represents a 2
percent follow-up rate. One inspector claimed that his supervisor failed to notify
him when an operator made a required correction — even after he had asked his
supervisor to do so. Instead, the supervisor gave permission to the company to
restart operations without consulting the reviewing inspector. During interviews
of BOEMRE personnel, one inspector also noted that operators habitually call the
Bureau until they reach someone who is willing, sight unseen, to grant the
operator permission to bring the component responsible for a violation back
online.

BOEMRE maintains its TIMS database, which tracks INCs and their status. The
TIMS application provides the means to collect and analyze offshore lease
information, provide data for environmental studies, and collect and analyze
information from inspections of offshore platforms and drilling rigs. Data
provided by TIMS indicate that 48 percent of the INCs issued did not have a
correction date included in the database. Specifically, one of the district offices
only recorded completion dates for 10 percent of its INCs, leaving 90 percent
unrecorded. When information is improperly reported in the Bureau database,
inspectors and managers have difficulty determining whether the proper follow-
up has been conducted.

Regulations permit BOEMRE to disqualify, disapprove, or revoke the designation
of operator on a single facility or on multiple facilities if that operator
demonstrates chronically poor performance. If this happens, the company can no
longer serve as operator on that facility or on multiple facilities. BOEMRE also
can prohibit the company from acquiring new leases or assignments for a
specified time. This tool, however, has only been used once in recent years.
Factors BOEMRE may consider in disqualifying an operator include accidents,



                                                                                  31
pollution events, environmental damages, INCs, civil penalties, and failures to
adhere to OCS lease obligations.

 Recommendations

    38. Require on-site follow-up inspections, or other forms of evidence, to
        document that operators have made the required corrections to INCs.

    39. Improve the INC documenting and tracking system so the status and
        resolution of INCs are fully documented, properly tracked, and
        corrected.

    40. Consider updating the INC form and other operational reporting
        documents to require operators to certify under penalty of perjury
        that all information submitted to the Bureau is accurate.

    41. Consider changing the approval process for returning a facility or
        component to operation by limiting who has approval authority,
        creating a system for tracking approvals and disapprovals, and ensuring
        that all staff who have approval authority have access to and properly
        use the tracking system.




                                                                                  32
Chapter 4: Environmental and
Cultural Resources
Overview
Interviews and survey responses from BOEMRE’s environmental community
revealed the perception that BOEMRE has emphasized the need to approve lease
sales, permits, and drilling plans over its responsibilities for OCS environmental
and cultural resources. This emphasis on lease sales and on expediting plans and
permits has created an imbalance in how BOEMRE fulfills its dual mandates to
develop OCS resources responsibly and to protect the environment. Results of this
prioritization include minimized environmental impacts, inefficient mitigation,
and an insufficient compliance program.

Introduction
BOEMRE controls exploration, development, and production of minerals on the
OCS, while it also safeguards OCS resources. This dual mandate arises from the
OCSLA, which states that the OCS is “a vital natural resource reserve held by the
Federal Government for the public” and, as such, it “should be made available for
expeditious and orderly development, subject to environmental safeguards.”

To meet its mandates, BOEMRE determines impacts on OCS marine and coastal
environments before, during, and after minerals development. Depending on the
activity, involved staff members may include petroleum engineers, physical
scientists, archeologists, biologists, physical scientists, and environmental
protection specialists, among others. In addition to the OCSLA, the National
Environmental Protection Act (NEPA) requires that BOEMRE “use all
practicable means” to “preserve important historic, cultural, and natural aspects of
our national heritage” and “to the fullest extent possible” consider how proposed,
major Federal actions impact the environment.

The environmental and other resource safeguards that BOEMRE implements
depend on the stage of minerals development. Before BOEMRE sells a lease, it
determines potential environmental impacts for areas under consideration for
leasing. After BOEMRE sells a lease, the operator submits an exploration plan to
the Field Operations’ Plans Section (Section). Plan coordinators check a box on a
form to show they have received all appropriate documents. The Section is the
designated submittal site for all operators’ plans, as well as for approvals of plans
and their component parts. The Section coordinates plan schedules and serves as a
communication liaison between operators and Leasing and Environment staff. In
this capacity, the Section also is involved with mitigation and compliance requests
from Leasing and Environment specialists.

Once plan coordinators complete checklists, they submit the plans to the
appropriate reviewing officials. The plans are submitted to the Environmental

                                                                                  33
Compliance Section within Leasing and Environment. A NEPA coordinator then
conducts a categorical exclusion review to determine what type(s) of review(s)
the proposed activities could trigger. The NEPA coordinator makes a preliminary
determination on the review type, which could include a categorical exclusion
review with no further analyses, a categorical exclusion review with analyses, or
instructions to prepare an environmental assessment or an environmental impact
statement (EIS). For example, a categorical exclusion review with analyses might
state that a proposed activity triggers an environmental assessment. After
determining the type of review, the NEPA coordinator then assigns the work to
resource specialists, such as oceanographers and archeologists, based on the
regulatory trigger that needs to be addressed. These specialists determine whether
a plan requires conditions of approval.

Findings and Recommendations
Environmental and Socio-cultural Impacts
BOEMRE produces NEPA and other regulatory decision documents in which
staff members determine if actions such as multiyear lease sales or seismic testing
have potential environmental impacts. Problems have arisen when BOEMRE
managers have told BOEMRE scientists to reduce the severity of the impacts they
identified during their research.

In one case, a scientist was told by his manager that his “conclusion of
significance under NEPA means an EIS and delay in [the lease sale]. That would,
as you can imagine, not go over well [with Headquarters] and others.” He was
told to change his findings and, if he did not, “someone else would do it [for
him].” A finding of significance could delay a lease sale for up to 2 years. One
former employee summed up the perceived attitude of some managers toward
NEPA as nothing more than a “green light” to approve oil and gas actions.

Although reporting to the same Regional Director, Leasing and Environment and
Field Operations (FO) personnel often have competing priorities and performance
indicators. For instance, FO managers’ performance appraisals are based, in part,
on meeting leasing schedule deadlines or development approvals. On the other
hand, scientists and environmental protection specialists are responsible to ensure
BOEMRE complies with environmental regulations and protects against or
mitigates reasonably foreseeable impacts.

Pressure on the scientists arises when their research identifies potential problems
that may stop the leasing and permitting clocks. In one case, a scientist reported
that he found significant impacts on Gulf of Mexico marine mammals from
proposed seismic explorations. According to this scientist, although a National
Marine Fisheries Service EIS supported his findings, BOEMRE hired an outside
consulting company to “massage” his reported impacts to get them below the
statutory threshold. These types of situations may occur because one person
oversees both the leasing and environmental processes. Our review determined
that the approval of lease sales has prevailed over the need to fully consider

                                                                                  34
environmental impacts. The management structure, with its inherent performance
conflicts, could distort balanced decision-making.

 Recommendations

     42. In future institutional structures implemented through the ongoing
         reorganization, separate the management of environmental functions
         from those of leasing and development to ensure that environmental
         concerns are given appropriate weight and consideration.

     43. Explore and encourage other processes, policies, and incentives that
         promote a culture of balanced stewardship and evaluate existing
         policies and practices that may impede the ability to achieve this
         balance.


Mission Conflicts and Mitigation Planning
Operators’ plans and related documents serve as the blueprints from which they
conduct their exploration and production activities. Before BOEMRE approves
plans, specialists in different subject matters review them to determine how
operators’ activities will affect the environment. For instance, a staff biologist
might find that a plan shows an anchor placed in an environmentally sensitive
area and require its placement farther away as a condition of approval of the plan.
These reviews serve as the only avenue available to the specialists to ensure
operators mitigate harmful activities, such as setting an anchor in sensitive areas,
in their plans.

Reviews oftentimes result in specialists’ need for more information than the
operators include in their plans and documents. Since discussions directly
between the specialists and industry historically have not been allowed, specialists
communicate with industry through the designated third party, the BOEMRE FO
Plans Section.

The specialists have expressed frustration with actions taken by FO concerning
their reviews. Some specialists report that FO coordinators and managers make
decisions that benefit an operator at the expense of regulatory compliance. For
example, one scientist stated that FO managers “conditionally” approved an
operator’s plan to set anchors in a sensitive area even though the required
remotely-operated vehicle survey had not been conducted. FO managers made
this decision after deciding that the survey, as a condition of approval, would
unnecessarily delay the operator in conducting its business. Specialists involved
in this review stated that FO managers considered the survey “unnecessary due to
the nature of the objects being protected,” even though the nature of the objects
was unknown. One environmental specialist stated that the managers’ belief
reflects a culture passed down over the years in which FO “calls the shots,” and


                                                                                  35
that they perceive the specialists’ actions as arising solely from a desire to shut
down industry.

BOEMRE managers described the situation between FO and Leasing and
Environment as tense, distrustful, and uncooperative. Managers have reported that
personnel in FO and the Leasing and Environment sections who are assigned to
different program areas have difficulties working as a team. Within Field
Operations, staff members have expressed the belief that Leasing and
Environment personnel are too stringent with their analyses and opinions, doing
more than is needed, and, therefore, intentionally slow the approval process.

One regional supervisor described scientists as “well-meaning for the most part”
but also stated that they use “vague” methods and have “questionable” intentions
when they request information from operators. This supervisor expressed the
belief that the archeologists use the request for information process as a “hold-up
technique” to delay oil and gas actions, saying that information requests “can
reset the clock on the plan.” Several specialists we interviewed stated that FO
staff members rewrite the specialists’ requests, even though they do not have the
regulatory expertise to do so. Several scientists stated that having a liaison with an
environmental regulatory background would be helpful due to the specialized
nature of their requests.

 Recommendation

     44. Consider creating a review panel within BOEMRE to resolve all
         conflicts regarding information requests, mitigation determinations, and
         remediation efforts.

Environmental Compliance
Environmental compliance involves conformity with environmental laws,
regulations, lease stipulations, and conditions of approval. Nearly all compliance
work occurs through document reviews and the tracking of mitigation and
monitoring information in the TIMS database. Evidence reviews may result in
requests for more information to confirm compliance or to issue an INC. In
addition, the Gulf of Mexico Region has an environmental engineer who conducts
air quality tests. While the majority of environmental compliance activities occur
in the office, the environmental engineer takes on-site air samples at rigs.

BOEMRE scientists report that managers have rewritten or dropped their requests
for INCs. One scientist described the dispositions of many INC requests as having
fallen into a black hole. Another scientist reported an incident in which an
operator failed to notify BOEMRE about a shipwreck within 72 hours, as required
by regulations. Instead, the operator notified BOEMRE more than 2 years later.
The scientist tried to issue an INC to the operator, but Field Operations “stepped
in to salvage the situation.” The scientist wanted a diver investigation to identify

                                                                                      36
the shipwreck and provide the archaeology group with enough information to
adequately protect the site. The scientist also wanted to issue an INC for failure to
notify within the regulatory timeframe. Field Operations denied both requests
based on assurances from the operator that the shipwreck would not be harmed.

Several specialists stated that Leasing and Environment supervisory staff should
have INC approval authority for issues related to the environmental regulations
their sections oversee. One specialist said that the best person to determine if an
operator is complying with a condition of approval is the person who placed the
condition on the plan. This person said that the INC is the only tool his staff
members have to ensure compliance with environmental regulations.

Another concern expressed was how BOEMRE internally tracks compliance
information. According to personnel interviews and a BOEMRE-conducted 2008
Alternative Internal Control Review, TIMS and the environmental compliance
program suffer from several weaknesses. These include inadequate training for
Leasing and Environment staff to use and access TIMS, inconsistencies among
district offices in processing environmental mitigation requirements, and a lack of
environmental investigators. Problems with TIMS have led to the inability to
adequately document and track environmental mitigation and monitor for
compliance.

 Recommendations

     45. Consider giving Environmental Section supervisory staff INC approval
         authority for issues related to the environmental regulations they
         oversee. (Not included in Board report)

     46. Review the adequacy of access rights to TIMS and the training of
         environmental staff in its use. (Not included in Board report)

     47. Consider dedicating inspectors for environmental compliance. (Not
         included in Board report)




                                                                                  37
Chapter 5: Enhanced Accident
Investigations
Overview
A strong and effective accident investigations program is essential to ensure that
accidents are properly investigated and that effective recommendations are
identified and implemented to prevent future accidents.

We performed site visits to the Gulf of Mexico Region, specifically to three of its
five district offices and the Pacific Regional Office and its district office. We
found that employees who conduct accident investigations are highly motivated,
but that organizational, procedural, and regulatory issues impede the accident
investigation program’s effectiveness.

Programmatic impediments include insufficient full-time dedicated investigation
personnel, accident reporting guidelines for operators, guidelines for conducting
investigations, requirements for accident investigator independence, requirements
for program peer review, and systems to ensure recommendations are
implemented.

Introduction
BOEMRE conducts investigations to identify the causes of accidents and makes
recommendations to prevent similar events. BOEMRE investigation guidelines
consist mainly of a 2003 manual, a 2009 memorandum, and an accident
investigation handbook dated February 2010.

Investigations are initiated after evaluating and identifying significant incidents
reported by operators. Completed investigations are followed by report
recommendations that generally take two forms: (1) internal recommendations to
require reviews or changes to policies and procedures and (2) issuance of industry
safety alerts that notify operators of accident causes and recommend
preventatives.

Two types of investigations exist: panel and district. Panel investigations involve
complex or serious accidents (e.g., fatalities, fires, and explosions) and are
conducted by a team appointed by the regional director. The Gulf of Mexico
Region has two full-time accident investigators, petroleum engineers, who
perform panel investigations. The Pacific and Alaska Regional Offices have no
full-time accident investigators and rely on Gulf of Mexico personnel to conduct
panel accident investigations. District investigations are typically less complex.
They are conducted by an individual or team appointed by the local district
supervisor. District office investigations are usually performed as a collateral
duty.


                                                                                 38
Accident investigations are initiated based on the evaluation of incident reports
filed by operators. Since 2000, BOEMRE has received over 6,500 incident
reports, which resulted in almost 800 accident investigations. Gulf of Mexico
investigations included 714 district and 45 panel investigations, while Pacific
investigations included 29 district and three panel investigations. Alaska had no
incident reports and conducted no accident investigations during this period.

In addition to the regional accident investigation staff, BOEMRE also has an
Accident Investigation Board located in Herndon, VA. This office has a small
staff of petroleum engineers who provide expertise on accident investigations.
The office is also responsible for providing investigation policies and for
compiling and analyzing data. This later action facilitates better understanding of
the causes of accidents and helps determine appropriate actions to enhance safety
and environmental protection. The Accident Investigation Board office also works
closely with the U.S. Coast Guard and DOT.

Findings and Recommendations
Collateral Duty Accident Investigators
Representatives of the Gulf of Mexico Regional Office and the Lake Charles and
Lafayette District Offices all identified using full-time inspectors as an
opportunity to improve the quality of both investigations and inspections. The
Gulf of Mexico Regional Office has two petroleum engineers who work full-time
as accident investigators on panel reviews, but district offices rely primarily on
inspectors to conduct district office accident investigations.

Although district office accident investigations can be significant, which may not
be initially apparent, dedicated full-time investigators are not always available to
ensure that each investigation is performed adequately. Inspectors are generally
required to maintain their normal inspection workload while they conduct district
office accident investigations. As recently as June 14, 2010, the Lafayette District
Office submitted a written recommendation to the Regional Office to add new
positions to help conduct accident investigations Region-wide.

Further, district offices sometimes lack staff with appropriate training in accident
investigations. Some types of accident investigations require specialized
experience and have complex reporting requirements. Accident investigation
training is required for all key regional and district personnel and for all
inspectors at the journeyman level (GS-11). Required training includes 24 hours
of initial training and 16 hours of refresher training every 5 years. We found at the
New Orleans District Office that only 3 of 11 journeymen inspectors had the
required training to perform accident investigations.

Another source of training in addition to BOEMRE is the National Transportation
Safety Board (NTSB), the U.S. Government’s independent agency for
investigating transportation accidents. NTSB training includes marine accident
investigation with an emphasis on evidence gathering, examination and analysis,

                                                                                    39
interviewing, and the human factors involved in marine accidents. NTSB employs
marine accident investigators and provides training to the Federal Bureau of
Investigation and the National Aeronautics and Space Administration.

 Recommendation

     48. Consider restructuring the accident investigation program to dedicate
         additional full-time staff with appropriate training in accident
         investigations.


Operator Incident (Accident) Reporting Guidelines and Requirements
Operators are required to file incident reports for serious events that include fires,
explosions, fatalities, serious injuries, loss of well control, and oil spills.
BOEMRE operator reporting requirements, however, do not mandate specific
information, such as site photographs or identification by the operator of the
probable cause of an accident. As a result, BOEMRE often does not have
sufficient information to determine whether an accident investigation is necessary.

While some investigations are mandatory, BOEMRE relies on operators’ reports
to determine the severity of accidents and assess the need to conduct accident
investigations. For example, fires only require an investigation if they are
considered “major.” At the Lake Charles District Office, we identified a
potentially catastrophic fire that might never have been investigated based on the
operator’s initial description.

Platform personnel mistakenly tied a natural gas drain line into an air conditioner
drain line. The natural gas backed into the air conditioner motor and caused a
serious fire that could have been catastrophic had the natural gas fire migrated to
the fuel source and associated containment area, which were located two decks
below the air conditioner unit. Fortunately, district office personnel investigated
the accident, which ultimately resulted in civil penalties exceeding $400,000 for
unsafe work practices.

 Recommendation

     49. Require operators to provide detailed descriptions of certain types of
         accidents (e.g., fires) to determine whether accident investigations or
         other corrective actions are necessary.


We found that guidelines for accident investigations lack sufficient requirements
and detail to ensure adequate and consistent conduct and documentation of
investigations. As a result, inspectors may miss the opportunity to identify causes


                                                                                   40
and make proper recommendations for prevention. Further, personnel who
conduct investigations often do not use existing guidelines.

Although BOEMRE’s March 2010 guidelines address some necessary
improvements, they lack detailed requirements for planning investigations,
gathering and documenting evidence, and ensuring quality control. We identified
the following areas for guideline improvements:

   •   Preparing and retaining planning documents that identify how the
       investigation was conducted and include team assignments, timeframes,
       people to be interviewed, and required site visits.
   •   Requiring formats or specific detail to document site visits and interviews,
       specifically identification of dates, times, people interviewed, questions
       asked, a detailed description of answers, and conclusions drawn from site
       visits and interviews.
   •   Requiring detailed and documented review in support of the report’s
       conclusions and recommendations.

We selected seven panel reports and 25 district accident reports for review that
were issued by the Gulf of Mexico and Pacific Regional Offices. We reviewed the
supporting documentation contained in the investigative files and found that some
files were well-organized and documented, while others lacked critical
documentation, such as:

   •   Evidence that an initial site visit was conducted to collect timely witness
       statements and physical evidence.
   •   Evidence of interviews to support the report’s conclusions.
   •   Evidence of information provided by the operator that was critical to the
       investigation.
   •   Organizational information or other data to assist in the file review, such
       as team assignments, investigative schedules, and a prior operator
       inspection compliance history.
   •   No formal accident investigation file (in some cases). Individual
       employees had the information we requested.

We interviewed supervisory staff and accident investigators and found that some
personnel who conduct investigations were unaware of issued guidelines. Further,
some stated they were aware but preferred to use their own undocumented
methods for conducting investigations.




                                                                                 41
 Recommendation

     50. Develop and implement internal procedures to fully conduct and
         document accident investigations, including planning, basic investigation,
         evidence gathering protocol, and supervisory review.


Accident Investigator Independence Policy
BOEMRE has no independence policy for accident investigators to prevent
conflicts of interest with industry. OIG investigations previously identified this as
an issue, with inspectors and other staff identified as recipients of improper
industry gifts, relationships, and favors. Conflicts of interest or their appearance
impugn the integrity of the accident investigation process.

On June 12, 2010, a new independence policy for inspectors became effective in
the Gulf of Mexico. The policy was designed to provide greater inspector
independence by identifying and eliminating improper industry pressure on
inspection planning, prohibiting harassment of inspectors who take enforcement
actions, and precluding assignments for inspections in the case of prior
employment or personal relationships with operators. Although operator accident
investigations are subject to the same industry influences as inspections, this
policy does not apply to inspectors or to other personnel who conduct accident
investigations.

 Recommendation

     51. To supplement existing ethics requirements and recusal policy, create
         an independence policy for all accident investigation personnel that
         includes certifications signed by investigation personnel, prior to
         commencing work on a particular investigation, affirming the absence
         of any conflicts of interest.


Peer Reviews of Accident Investigations
BOEMRE has no independent peer review process for catastrophic and complex
accident investigations. Peer review has been endorsed throughout the Federal
Government as a mechanism for improving the quality of products and processes.
Federal agencies use various organizations, laboratories, and advisory groups to
review specific processes. For example, the NTSB used the Sandia National
Laboratory to peer review its safety board analysis of the 2007 Interstate I-35
Bridge collapse. The Sandia Laboratory and other groups commonly provide
these services for a fee through memorandums of agreement or other procurement
methods.




                                                                                   42
 Recommendation

    52. Explore the utility of an independent peer review process for panel
        investigations.


Follow-up System for Accident Investigation Recommendations
BOEMRE has no accountability system to determine if internal recommendations
or recommendations to issue safety alerts have been implemented. Our review of
BOEMRE internal recommendations identified that safety alerts are often not
implemented, and, in some cases, are not issued.

If recommendations are not implemented, the causes of accidents may remain
uncorrected and contribute to future accidents. Implementation data is required to
follow up on operator compliance and to measure program effectiveness.

We reviewed 25 recommendations from seven panel reports issued by the Gulf of
Mexico and Pacific Regional Offices. We found that BOEMRE could provide
evidence that only one recommendation was implemented. While documentation
indicated other recommendations might be implemented in the future, BOEMRE
lacked the necessary follow-up system to ensure that the recommendations were
being actively tracked for implementation.

A system to follow or track the status of investigative recommendations should
contain various attributes, including:

   •   Appointing a follow-up official to ensure recommendations are tracked
       and implemented.
   •   Requiring a specific date for implementation.
   •   Identifying specific actions required for implementation.
   •   Maintaining accurate records of the status of recommendations, including
       details on actions taken for implementation.

We reviewed NTSB statistics collected since 1988 and found that the organization
reported over 80 percent of safety recommendations had been implemented.
Without a follow-up system to track recommendations, the accident investigation
program at BOEMRE cannot accurately account for any of its recommendations
or measure Program effectiveness.

 Recommendation

    53. Establish a system to track investigation recommendations for
        implementation and verify that they have been implemented.


                                                                                 43
Chapter 6: Safety
Overview
BOEMRE must serve a pivotal role in fostering a new culture of safety and
environmental stewardship. To this end, when developing and implementing its
regulations, the Bureau must also consider the importance of protecting human
life and the environment. Unfortunately, BOEMRE’s process for developing or
updating standards and regulations has not kept pace with new and emerging
offshore technologies.

Introduction
BOEMRE’s current regulatory framework is based on communication methods
such as NTLs, and its regulatory efforts have focused more on reacting to
problems than on providing proactive guidance to operators. In addition,
BOEMRE’s review of Oil Spill Response Plans (OSRPs) does not ensure that
critical data are correct or that other relevant agencies are involved in the review
process. OSRPs do not adequately address the calculation for worst-case
discharge scenarios. They also fail to include measures for containing and
controlling oil and gas discharges.

Findings and Recommendations
Regulatory Framework
BOEMRE regulates a variety of complex operations and activities associated with
leasing and developing offshore oil and gas in the OCS. BOEMRE receives its
authority to regulate the industry from a variety of Federal statutes and regulations
that have gradually evolved since the passing of the Mineral Leasing Act in 1920
and the Submerged Lands Act in 1953.

BOEMRE’s fundamental regulatory authority comes from two legislative acts:
OCSLA and the Federal Oil and Gas Royalty Management Act of 1982
(FOGRMA). OCSLA authorized the Secretary to grant mineral leases and
prescribe regulations in the OCS. FOGRMA designated the Department as
responsible for offshore mineral leasing and authorized the Secretary to prescribe
rules and regulations necessary to carry out its provisions.

Title 30 C.F.R. contains Federal regulations that implement the provisions and
intent of multiple mineral acts, including OCSLA and FOGRMA. Title 30
expands upon the acts and has the binding effect of law. Provisions of the Code
may also reference directives and standards developed by independent trade
organizations, such as the API or the American Society of Mechanical Engineers
(ASME).

In addition to the regulations codified in the Code, BOEMRE issues NTLs and
Information to Lessees, formal documents clarifying regulations and standards.


                                                                                   44
BOEMRE also issues safety alerts — advisories to operators regarding an
incident or near miss. These can provide recommendations for reducing risks.

Proposals for new regulations or modifications to current regulations for emerging
technologies generally come from regional or district personnel and are based on
observations made in the field and research conducted by BOEMRE’s
Technology Assessment & Research (TA&R) Program. The TA&R Program
ensures that operations on the OCS incorporate the best available and safest
technologies. It also supports research into operational safety, pollution
prevention, and oil spill response.

Federal oversight of an industry that quickly develops new and improved
technologies requires an adaptive and responsive regulatory framework. Such a
framework is required to ensure safe and environmentally sound energy
development and production in the OCS.

Regulations typically take 2 years or more to finalize. Rules with a potential
impact of at least $100 million require Office of Management and Budget (OMB)
review and can take up to 5 years or more to process and activate. For example,
BOEMRE published a rule this year on a safety and environmental management
system. According to BOEMRE officials, this proposed rule had been under
consideration for nearly 20 years, while a similar program is an established
standard of the API. The adoption of this rule into the Code would constitute an
enforceable regulation rather than a set of recommended practices.

As a result of the cumbersome regulatory development process, many operational
issues are addressed by issuing NTLs, safety alerts, approvals for alternative
procedures or equipment, and departures. BOEMRE officials process frequent
requests to deviate from current regulations to allow the use of new technologies
and standards. The Gulf of Mexico Region has approved 2,414 departures since
2005. The continuing requests to deviate from current regulations place an
additional burden on permitting officials, while highlighting the need to update
regulations.

BOEMRE may not have sufficient staff with the requisite expertise to review and
vet standards developed by industry subject matter experts, such as the API, or to
determine the propriety of incorporating such standards into regulations. The API
develops and recommends standards for oil and gas operations that can be
incorporated into regulation by reference, thus becoming mandatory. BOEMRE
can adopt these standards in whole or in part, or it can reject the API standard at
its discretion.

The API has created approximately 240 standards for offshore oil and gas
development — only 78 are referenced into regulation. Although BOEMRE
officials routinely participate in the API’s standards development process, the
Bureau does not have enough qualified staff to effectively review all standards. A

                                                                                 45
Bureau official stated that BOEMRE’s lack of technical expertise has prevented
more of these standards from being referenced into the regulations.

Whether TA&R recommendations are implemented or whether they result in new
or updated regulations is unknown because BOEMRE does not have a mechanism
to track the recommendations. Although BOEMRE officials confirm that research
findings are sometimes used to establish or modify policy, no formal process
exists to review the results of each study or track BOEMRE actions that result
from a study’s conclusions. Absent a formal assessment and implementation
process, BOEMRE fails to identify the best and safest technologies in developing
new regulations.

A BOEMRE team actively reviews documents from outside sources that may be
beneficial for referencing standards into Federal regulations. In addition to the
API, BOEMRE reviews work by the ASME, the International Organization for
Standardization, and the International Regulators Forum. BOEMRE is a member
of the last group, which seeks to improve offshore safety through international
collaboration. BOEMRE has entered into memoranda of understanding with
various countries to share scientific and technical information.

BOEMRE and industry trade groups have conducted limited research to review
the effects of deepwater on equipment and operations. With the exception of
requirements for drilling and platform design, BOEMRE regulations make little
distinction concerning operations in varied water depth. API as well as
BOEMRE’s regulatory branch conceded that little research into deep water has
been done. Those studies that compare water depths on equipment and operations
reveal conflicting results, and are, therefore, inconclusive. For instance, one study
concluded that the effect of deep water on blowout preventers is negligible, while
another study claimed deep water would necessitate specifically designed
equipment. In addition, regulations that specifically address some deepwater
activities exist but are scattered throughout BOEMRE regulation subsections.

 Recommendations

     54. Develop a dynamic regulatory framework that provides for interim and
         continuing guidance to operators, ensures the proper use of NTLs,
         addresses gaps and inconsistencies within BOEMRE regulations, and
         reconciles related Bureau regulations.

     55. Ensure that BOEMRE has sufficient staff with the expertise needed to
         review and vet standards developed by industry group subject matter
         experts to determine the extent to which those standards should be
         used in developing regulations.




                                                                                   46
    56. Identify actionable items from the TA&R studies, track concurrence
        and implementation of those items, document rejected
        recommendations, and consider broader opportunities for the TA&R
        Program.

    57. Consulting with technical experts, conduct further analysis of the
        effects of water depth on equipment and operations, and determine
        the adequacy of current regulations.


Oil Spill Response Plan Review
The Exxon Valdez oil spill in 1989 prompted adoption of the Oil Pollution Act of
1990, which strengthened the planning for and prevention of future oil spills.
Subsequently, regulations were adopted that require operators to develop and
submit OSRPs. To ensure readiness for an actual discharge, BOEMRE is
responsible for reviewing OSRPs submitted by operators.

Title 30 C.F.R. 254.21-29 outline the information required for OSRPs. The
requirements include an introduction and plan contents, an emergency response
action plan, appendices that detail equipment inventory, contractual agreements, a
worst-case discharge scenario, dispersant use plan, in situ burning plan, and
training. In accordance with the plan, operators must test equipment and have
recurring drills to ensure readiness. The OSRP must show that operators can
respond quickly and effectively to an actual discharge.

To guide operators in developing OSRPs, BOEMRE issued NTL 2006-G21 in
October 2006. This included an attachment that mandates the sections and
appendices in each OSRP. In July 2009, BOEMRE issued “Oil Spill Response
Plan Review Standard Operational Procedure,” which is designed to guide
BOEMRE personnel when processing OSRPs. It includes a checklist for
determining if OSRPs are complete.

In addition to the requirements placed on the operator by the Oil Pollution Act,
BOEMRE conducts drills and equipment inspections to verify compliance and
ensure operator readiness. The Gulf of Mexico Region has conducted 15 drills in
the past 2 years, 3 of which were major. BOEMRE staff members oversee the
exercises, while other Federal agencies are invited to participate. Operators are
rated on a pass/fail system. Those who receive a failing grade are required to
conduct remedial drills.

BOEMRE also performs inspections to ensure that all equipment listed in OSRPs
is available and operational. Bureau officials conduct onsite inspections at
companies contracted by industry for spill containment. Inspectors do not,
however, verify the availability and presence of third-party equipment listed in the
OSRP prior to conducting inspections. Operators’ outsourcing of oil spill

                                                                                 47
containment efforts to third-party contractors alleviates their requirement to
maintain their own crews and equipment. They can share costs of equipment and
personnel with other operators by contracting one outside source to keep and
maintain the necessary equipment and personnel. Operators, however, are
accountable for ensuring that the companies under contract have the required
equipment, as detailed in their OSRPs. BOEMRE selectively inspects these
contractors annually to ensure operator compliance.

Information contained in one operator’s OSRP is consistent with that in other
operators’ plans, which results in similar or “cookie cutter” plans. The
consistency of using similar plans offers an economic advantage to operators but
also increases the possibility that overlooked mistakes are perpetuated in
subsequent versions of plans.

Operators may consolidate OSRPs by including multiple leases or facilities within
a region. These are called regional response plans. While there are more than
3,000 platforms in the Gulf of Mexico Region, only about 170 OSRPs exist. The
Gulf of Mexico Region reviews these OSRP every 2 years. The Pacific Region
reviews only six OSRPs, which is consistent with the number of operators in the
region. OSRPs range from 400 to 700 pages in length. Each BOEMRE region
designates an OSRP administrator who reviews OSRPs. Plans must be updated
and reviewed biannually unless important information changes enough to require
more frequent review.

BOEMRE has a memorandum of agreement (MOA-OCS-3) with the U.S. Coast
Guard regarding oil discharge planning, preparedness, and response. The
memorandum confirms BOEMRE’s responsibility for approving OSRPs and
identifies U.S. Coast Guard review as elective. Memoranda of Understanding
(MOUs) with State authorities reaffirm BOEMRE’s role as the primary reviewer.
In the MOU with California, BOEMRE’s Pacific Region has agreed to review and
approve OSRPs required by California in addition to federally-mandated OSRPs.

Numerous Federal agencies conduct studies and reviews that influence OSRPs.
Many of those agencies actively participate on regional and national response
teams. The EPA reviews and approves dispersants acceptable for use as outlined
by the OSRP. The National Oceanic and Atmospheric Administration tracks
ocean currents to best anticipate oil dispersion. The National Oil Spill Response
Test Facility, operated by BOEMRE, conducts full-scale testing of oil spill
equipment. The U.S. Coast Guard functions as the Federal, on-scene coordinator
for coastal regions and is responsible for coordinating all Federal containment,
removal, resources, and disposal efforts for oil spill incidents.

An effective response to an oil spill requires a well-prepared plan and a
coordinated effort by many Government agencies. For the plan to function as
designed, correct information in the OSRP is necessary. BOEMRE, however,
does not always verify critical information, which might diminish the

                                                                                48
effectiveness of an operator’s response. Further, coordinated review of OSRPs is
essential for all agencies charged with responding to actual spills but is not
required.

Since the Oil Pollution Act of 1990, Federal agencies have concentrated efforts to
coordinate oil spill responses. For example, Federal agencies established the
National Preparedness for Response Exercise Program as a voluntary plan to help
synchronize drills and training exercises for offshore spills.

Interviews conducted with BOEMRE staff indicate that routine drills are
conducted by Bureau officials — without the participation of other agencies. The
U.S. Coast Guard organizational transfer to the Department of Homeland Security
(DHS) and its subsequent shift in focus were cited by BOEMRE as reasons for
not participating in joint exercises. The requirement for BOEMRE to formally
review OSRPs while the U.S. Coast Guard or EPA serves as the Federal on-scene
coordinator creates a separation of duties that necessitates collaboration. Neither
the U.S. Coast Guard nor the EPA, however, is required to formally review
OSRPs before BOEMRE’s approval.

Gulf of Mexico Region officials who are tasked with reviewing OSRPs use a
checklist to verify that required sections have been included. Certain critical
elements of the OSRP are not verified to ensure operator compliance and
readiness. For example, the calculation for worst-case discharge that serves as a
driver for the response plan is not consistently verified. In Appendix A of the
OSRP, operators are required to list existing OCS production facilities with a
worst-case discharge volume rating. Upon review of one OSRP, we identified that
some of the production facilities were not rated as required.

This brings into question the reliability of the worst-case discharge claimed by the
operator. BOEMRE issued additional guidance for operators with NTL 2010-N6
in June 2010 requiring support for the worst case discharge calculation. Although
this information may improve the reliability of worst case discharge calculations
provided by operators, our review did not reveal any recommended improvements
for BOEMRE's regulatory review process. Additionally, OSRP coordinators
interviewed during the review described their relevant qualifications, however, it
would be beneficial to ensure that all staff reviewing OSRPs exhibit minimum
technical knowledge. Moreover, BOEMRE needs to have a consistent process for
reviewing the critical elements of OSRPs.

 Recommendations

    58. Draft a new Memorandum of Agreement with the U.S. Coast Guard,
        EPA, and other interested agencies, requiring appropriate participation
        of all parties in the review of OSRPs and any related drills or exercises.



                                                                                 49
    59. Develop a review process for OSRPs that incorporates risk-based and
        other strategies to ensure that all critical information and spill
        scenarios are included in the OSRP by operators, and are
        comprehensively reviewed and verified by BOEMRE and/or other
        appropriate officials.

    60. Determine and ensure technical expertise necessary for staff to
        conduct comprehensive reviews of OSRPs.

    61. Ensure that inspectors verify the availability and presence of all
        equipment, including third-party equipment, listed in OSRPs prior to
        conducting inspections.


Oil Spill Response Plan
As required by the Oil Pollution Act of 1990, OSRPs are supposed to increase
preparedness for and containment of oil spills. Testimony from BOEMRE staff
assigned to the Oil Spill Response Program indicates that reducing the source of
spills is not the emphasis of OSRPs. Instead, plans are primarily based on the
recovery of oil once a spill has occurred. The provisions of 30 C.F.R. 254 and
BOEMRE NTL 2006-G21, which describe the contents of OSRPs, do not require
operators to include contingency plans for catastrophic discharges. BOEMRE
may address repair measures, such as drilling relief wells, in other areas of oil
development planning that offer more details on the containment and control of
spills.

The Code establishes a process for determining the volume of oil for a worst-case
discharge scenario. Determining the amount of potential discharge guides the
response necessary for effective containment of the spill and the reduction of
environmental damages. Title 30 C.F.R. 254.26 outlines the process for
calculating the worst-case discharge for offshore facilities. The section directs
operators to estimate the potential volume of oil released for a period of 30 days,
as outlined in 254.26(d)(1). BOEMRE officials said the period defined in the
Code is based on the longest suspected period for a potential blowout.

The Code recognizes the sources of potential discharges without consideration for
cause. OSRPs are not required and do not contain specific measures to deal with
the source of a spill. Operators may possess the technical expertise to identify and
repair the source of the spill, but these procedures are not clearly delineated.

The apparent failure of Deepwater Horizon’s blowout preventer has drawn
attention to the need to better prepare for discharge scenarios. This incident
demonstrates that unpredicted discharge scenarios demand rapid and effective
solutions. Consequently, industry leaders have recently committed resources to
improving response capabilities.

                                                                                 50
Given the duration of flow from the Deepwater Horizon well, a maximum 30-day
blowout period proved to be inadequate. The Bureau has initiated a review to
evaluate maximum blowout periods. The National Incident Command’s Flow
Rate Technical Group developed an independent estimate of the amount of oil
flowing from the Deepwater Horizon well during the leak. The group employed
new methods to estimate the flow, including mass balance, plume modeling, and
riser insertion tube tool.

 Recommendations

    62. Develop policies and procedures to require detailed descriptions of
        containment and control measures for the source of possible spills and
        determine where to incorporate these measures, either in the OSRP
        or elsewhere in the permitting process.

    63. Review calculations for worst-case discharges, with input from the
        Flow Rate Technical Group, and make recommendations for changes
        to 30 C.F.R. 254.47, as appropriate.

    64. Conduct additional research on containment and control measures to
        determine appropriate requirements for containing oil discharge at the
        source.




                                                                             51
Chapter 7: Employee Survey
Responses
Overview
In June and July 2010, the OIG conducted two online surveys of the workforce in
BOEMRE’s oil and gas program. The purpose was to learn from frontline
personnel which processes and procedures they believe are working well and
which need improvement. The first survey covered employees with inspection
and enforcement responsibilities, while the second covered personnel with
responsibilities in environmental and cultural resource protection activities.

The employees who responded to the survey questions also provided nearly 2,500
narrative comments. These comments provided valuable insight into the oil and
gas program and helped us shape our conclusions. The summaries and charts in
the following pages present the results from both surveys. For the inspection and
enforcement survey, we provide the charts from the inspector workforce, as well
as results from the larger body of employees. Both are included because the
responses sometimes differed between the two groups.

The totals in the charts may not add to 100 percent due to the rounding effect.

Introduction
We sent 199 surveys to BOEMRE personnel who are responsible for inspection
and enforcement activities throughout the Country. Of those, 126 respondents
completed the survey — a 63 percent response rate. Nearly three-quarters of those
who responded were inspectors, supervisory inspectors, petroleum engineers, or
supervisory petroleum engineers — the target audience for this survey. The
remainder worked in other supervisory positions, support staff/analysts/
technicians, scientists, and structural engineers. Nearly half were BOEMRE
veterans of 10 or more years.

Summary of Inspection and Enforcement Responses
Over 60 percent of the respondents agreed that the BOEMRE
inspection/enforcement program is operating effectively. Notable concerns
included the quality of leadership and poor communication from the National
Office, need for more experienced inspectors, availability of training for new
staff, and emphasis on the quantity of inspections versus their quality.
Respondents also expressed concern that the program is “too cozy” with industry,
that it lends itself to the appearance of impropriety; and that INCs are
unnecessarily rescinded due to favoritism to some operators. Recommendations
included conducting electronic inspections with laptops, developing a more
comprehensive database for the collection of data and scheduling of inspections,
and establishing teams to perform more quality inspections. Survey results also


                                                                                  52
included numerous suggestions for a national inspector training program with
formal certification and annual mandatory training.

Some respondents do not feel they have the backing of upper levels of
management, particularly in the writing of INCs. Their comments addressed the
appearance of favoritism to larger companies and/or companies that employ
former BOEMRE employees. Of particular concern were respondent expressions
of fear of interference or retaliation, the lack of support by management regarding
INCs, and the amount of time consumed while fighting rescissions. A
recommendation was made for training on INC preparation.

Some respondents expressed concern with current regulations used for
inspections, stating that there are too many waivers/departures issued to the
operators. Some also stated that regulations do not have enough “teeth” to allow
inspectors to enforce necessary issues yet provide sufficient flexibility to make
scientific judgments on a case-by-case basis. A number of respondents requested
training on enforcement of these regulations and felt that regulations should be
more thorough. Specifically, they felt that recommendations should include
specific inspection areas, as well as have more depth. Survey respondents also
recommended the use of electronic monitoring of real-time data from offshore
platforms/drilling rigs to ensure conformance to regulations and approved
plans/permits/applications. Several respondents suggested that penalties be
increased and linked to inflation to make them more than just an “operating
expense” to the operators.

Multiple respondents also noted that inspection forms were outdated and lacked
organization and substance and that important safety issues were not captured.
They also requested training in the proper completion of inspection forms.
Another suggestion made was the inspector should have the latitude to determine
a satisfactory amount of time to correct a deficiency.

A majority of respondents felt that unannounced inspections are an effective
enforcement tool, that they should be conducted more frequently, and that they be
based on various factors rather than on quotas. The primary concern was the need
for pilots to radio ahead due to DHS directives, thereby eliminating the surprise
factor of these visits. Several respondents commented that they have witnessed
operators making corrections when they saw the helicopter about to land. One
recommendation was to develop better methods of monitoring activities to ensure
conformance with regulations and approved plans/permits/applications,
specifically, to electronically monitor real-time data from offshore platforms and
drilling rigs.

Slightly less than half of respondents agreed that the Safety Award for Excellence
(SAFE) Award Program encourages operators to comply with safety regulations.
They believe, however, that the current award program impacts their ability to
write INCs. Several said that they believe favoritism is shown to companies who

                                                                                 53
employ former BOEMRE employees. Recommendations were made to consider
variables other than INCs in the award criteria; establish a Web site where the
public could see an “operator report card” that would include such things as the
number of INCs, accidents, and history of previous violations; and publicly
announce awards to illustrate that the industry works safely and within
compliance. Nearly one-third of respondents believe that it is not appropriate for
BOEMRE to continue administering the SAFE Award Program.

Overwhelmingly, surveyed BOEMRE employees felt they had received sufficient
ethics training, with many receiving that training in the last 2 years. They
suggested consideration of face-to-face training every other year or once every 3
years, with opportunity for staff to discuss specific ethical challenges. There was a
suggestion that the rules be applied fairly and consistently. Eleven percent of
survey respondents still believe the acceptance of gifts and gratuities remains
prevalent throughout BOEMRE.

When asked about the strengths of the BOEMRE inspection/enforcement
program, survey respondents focused on four areas:

   1. People: The number one response to this question was that the people who
      work for the BOEMRE inspection/enforcement program are its strength.

       They are frequently complimented on their knowledge, experience,
       dedication, and commitment; do more with less; and are hard-working,
       professional, conscientious, and well-trained. They also believe in the
       BOEMRE mission and their roles in protecting the environment, and want
       to make a difference.

   2. Management: Several comments emphasized the strength of the
      BOEMRE Inspections and Evaluations Program management staff,
      particular the effectiveness of management communication and support.

   3. Protecting the Waters/Safety: BOEMRE staff are focused on keeping
      the Nation’s waters safe and take their role seriously in making this a
      reality. They are proud of the cradle-to-grave nature of the BOEMRE
      program and their ability to encourage most companies to operate in a safe
      manner, thereby saving lives and protecting the environment. They believe
      that BOEMRE is the Government’s eyes in the field and that more
      accidents would occur if not for the Inspection and Enforcement Program.
      Several powerful comments were made:

       “We are needed in the oil and gas industry. No matter what we are made
       to look like in the public eye through the media and government officials,
       we protect this industry. The amount of safety we provide to protect the
       workers and the environment seems to have been forgotten in the last few
       months.”

                                                                                  54
       “We remain a strong team that has the safety of the operators offshore, and
       the environment in mind when we do an inspection.”

   4. Enforcement: BOEMRE employees also take pride in their enforcement
      role and the impact of that role in the protection of the Nation’s waters.
      They believe the regulations are effective when enforced and followed and
      know they are “keeping industry in a state of readiness because they never
      know when BOEMRE may show up.”

Survey of BOEMRE Inspection and Enforcement Personnel

Please identify your position.




How long have you worked in the BOEMRE inspection and enforcement
program?




                                                                               55
Overall, the BOEMRE inspection/enforcement program is operating effectively.




At the following organizational levels, management provides sufficient direction
and support for the BOEMRE inspection/enforcement program:




                                                                               56
I have received sufficient training to perform my job duties.




On average, what percent of your work week is spent conducting on-site
inspections?




Do you consider this sufficient?




                                                                         57
Incidents of Non-Compliance (INCs) and other enforcement actions issued by
my office are timely and appropriately resolved to ensure compliance.




BOEMRE enforcement actions are fair and objective.




I issue INCs without interference or retaliation from BOEMRE employees,
managers/supervisors, and/or operators.




                                                                             58
After issues have been identified through the inspection process, all necessary
follow-up is conducted to ensure operator compliance.




A desk INC is an effective enforcement tool.




The current BOEMRE regulations ensure that OCS drilling and production
platforms operate safely.




                                                                                  59
The inspection forms used by BOEMRE inspectors adequately capture the
violations that are identified in the field.




Unannounced inspections are an effective enforcement tool.




Unannounced inspections should be conducted more frequently.




                                                                        60
The amount of time BOEMRE provides operators to correct identified
deficiencies is:




There are enough inspection/enforcement personnel in my office to adequately
manage the workload.




Current enforcement tools and penalties (e.g. INCs and civil penalties) are
sufficient to deter operators from violating BOEMRE regulations.




                                                                              61
Inspection program information entered into the Technical Information
Management System (TIMS) is accurate, complete and provides useful
information for inspectors/enforcement personnel and managers.




The BOEMRE SAFE award program encourages operators to comply with safety
regulations.




The SAFE award program is administered fairly by the BOEMRE.




                                                                        62
It is appropriate for BOEMRE to administer an awards program for industry.




Do you believe you receive sufficient ethics training?




In the last 5 years, how many times have you received ethics training that was
not computer-based?




                                                                                 63
Does the Department provide sufficient oversight on ethics related to gifts and
gratuities?




Does the Department provide sufficient oversight on conflicts of interest?




With the recent publicity of ethical lapses, I believe the acceptance of gifts and
gratuities is prevalent throughout BOEMRE.




                                                                                     64
Which office are you assigned?




Summary of Environmental and Cultural Resource
Protection Responses
In June 2010, we sent 193 surveys to BOEMRE personnel responsible for
environmental and cultural resource protection on the OCS and received
responses from 109 employees — a 56.5 percent response rate. Almost two-thirds
of respondents were scientists or environmental protection specialists. The
remainder were supervisors/managers, support staff/analysts, or those who chose
not to provide their job title. Thirty-nine percent of respondents work in the Gulf
of Mexico Regional Office, with others working in the Alaska Regional Office,
the Pacific Regional Office, and the National Office. For more than 10 years, 35
percent have worked in the Environmental Section while more than half of the
respondents have worked in that Section for at least 4 years.


                                                                                65
In general, respondents were positive about BOEMRE’s efforts to protect the
environment. Nevertheless, many survey questions received a significant number
of negative responses. For example, nearly 70 percent of respondents either
agreed or strongly agreed with the statement, “Overall, BOEMRE ensures that
drilling and production activities protect the environment and cultural resources.”
Those that disagreed primarily cited a lack of independence and authority when
dealing with operators. They most commonly complained that BOEMRE’s FO
Division, which deals directly with operators, takes a pro-development, industry-
minded stance on environmental issues, thus preventing environmental staff from
being fully effective. Respondents repeated the concern throughout the survey
that FO was too pro-industry. Other common themes were a lack of an
enforcement mechanism, no follow-up or monitoring of industry after initial
NEPA action, inadequate resources (especially staff), and management
interference with scientific processes/conclusions.

Respondents’ primary complaint with FO was that environmental staff is barred
from communicating with operators without going through FO. This effectively
gives FO veto power over any action recommended by environmental staff. Many
respondents wrote comments saying that FO employees rejected anything that
they deemed too burdensome or costly to industry, even if environmental staff felt
the action was necessary to prevent damage to the environment or cultural
resources.

Some respondents complained that the Environmental Section lacked “teeth,” that
is, that the office needs the ability to issue INCs with stronger penalties and to
shut down operators in extreme incidences of noncompliance. Presently, NEPA
analysis is done and mitigation steps are developed. Operators self-report all
information on what actual steps are taken. The information is typically filtered
through FO. Environmental staff members have no way to ensure that operators
are actually carrying out the steps as designed.

Respondents also commented on insufficient resources to carry out their mission.
This included technology, funding, and staffing. Comments like “Significantly
staff up!” appeared periodically. Respondents frequently complained about being
overburdened, as well: “Staff are overcommitted and cannot perform duties to
their highest levels due to a continuous stream of new crises and higher priority
assignments.” Some went as far as to attribute the cause of staff shortages to high
turnover due to low morale and the subsequent waiting period before an empty
position is actually filled.

Finally, some respondents felt that management interferes too much with their
work. Nearly 20 percent of respondents claimed that they have had their scientific
work suppressed, ignored, manipulated, and/or distorted at some point in their
careers. Comments on this question indicate that respondents believe the
interference is often because their recommendations would cause a “burden to
industry.”

                                                                                 66
Only one question produced a mostly negative response, “Does the environmental
section possess sufficient authority to ensure its determinations are
implemented?” On other statements, such as “Current enforcement tools and
penalties (e.g., INCs and civil penalties) are sufficient to deter operators from
harming the environment and cultural resources,” a majority of respondents
responded “Neutral” or “N/A.” “Disagree” or “Strongly Disagree” responses were
the second highest received. Questions regarding staff competency, ethics
training, and the prevalence of improper gifts all received overwhelmingly
positive results. That is, BOEMRE employees believe that the current workforce
is extremely competent, that they are well trained in ethics issues, and that
respondents felt that the improper acceptance of gifts and gratuities is rare within
the Bureau.

Overall, respondents appeared to feel that BOEMRE is functioning reasonably
well. The negative comments regarding the primary issue areas of enforcement
authority, interference from FO/management, and inadequate staffing, however,
were repeated frequently.

Survey of Environmental and Cultural Resource Protection Personnel




                                                                                 67
68
69
70
71
72
73
Appendix 1: Recommendations
The 64 recommendations in this report are summarized below. In the list, 55 of
the recommendations were also contained in the OCS Safety Oversight Board’s
report issued on September 1, 2010. The Board made four other recommendations
that are not included here because we either did not perform the analytical work
associated with those recommendations or because the recommendations have
been addressed elsewhere in this report. Further, we are making nine new
recommendations (notated with *), based on additional work and analysis
performed by the OIG.

Chapter 1: Permitting
   1. Review permit staffing needs in the GOM district and regional offices to
      ensure that staffing levels and breadth of expertise are commensurate with
      increasing workloads.

   2. Develop a succession plan for BOEMRE staff in all regions.

   3. Develop a comprehensive and current handbook to compile and
      standardize policies and practices designed to assist permit reviewers in
      carrying out their responsibilities.

   4. Review and revise the permit review protocols to ensure that: (a) permit
      requests from operators and district responses are documented promptly
      and properly; (b) BOEMRE engineers have appropriate access to permit
      databases after hours; and (c) procedures are established that prevent
      “engineer shopping” by operators.

   5. Reexamine after-hours permit review services, the means by which any
      such services should be provided (e.g., on-call, permanent staff), and the
      feasibility of limiting its use by requiring operators to submit non-
      emergency requests and requests that could be reasonably anticipated
      during normal business hours.

   6. Develop procedures for reviewing departure requests that would
      standardize the process and ensure operators justify the requests based on
      concerns for well control; properly developing a lease; conserving natural
      resources; or protecting life, property, or the marine, coastal, or human
      environment.*

   7. Reevaluate departures previously or routinely granted to ensure that they
      can be justified according to the criteria for departures.*




                                                                                  74
Chapter 2: Inspections
  8. Compile a comprehensive and current handbook of all policies and
     practices designed to assist inspectors in carrying out their responsibilities.

  9. Develop an inspection program with strong representation at all levels of
     the Bureau. The program should facilitate good intra-agency
     communication in order to promote consistency, effectiveness, and
     efficiency and should provide strong support to the front-line inspectors.

  10. Evaluate the advantages of rotating inspectors among districts and regions.

  11. BOEMRE should undertake comprehensive workforce and workload
      analysis of the inspection program, including succession planning,
      anticipated workload needs, and increased capacity, and implement
      appropriate recommendations.

  12. Revisit the inspection strategy to identify sufficient inspection coverage,
      including reassessing the risk-based and self-inspection approaches.*

  13. Clarify the criteria for what constitutes unannounced inspections. Review
      and clarify the current policies under which unannounced inspections can
      be performed, including the U.S. Coast Guard MARSEC restrictions, and
      special notification arrangements with certain companies, so that
      unannounced inspections can be conducted to the greatest extent
      practicable.

  14. Identify critical operations conducted on all BOEMRE regulated facilities,
      and require that operators notify the Bureau about the timing of these
      operations so that inspectors can view operations first hand to the greatest
      extent practicable.

  15. Examine the viability of performing multi-day inspections of critical
      operations on rigs and platforms.

  16. Evaluate the advantages of conducting inspections in two-person teams
      instead of individually.

  17. Conduct advanced planning of inspections to allow inspectors time to
      prepare for each inspection and ensure efficient use of resources.*

  18. Analyze the benefits of obtaining electronic access to real-time data
      transmitted from offshore platforms/drilling rigs, such as operators’
      surveillance cameras and BOP monitoring systems, and/or other
      automated control and monitoring systems to provide BOEMRE with
      additional oversight tools.


                                                                                    75
19. Update all inspection forms to ensure they reflect all aspects of the
    inspection and accurately reflect new technology.*

20. Analyze ways to perform inspection activities more efficiently by using
    current technological tools, such as online review of reports and records,
    and by using mobile technology in the field.

21. Information technology systems should be considered within the context
    of the reorganization. Specifically, BOEMRE should examine whether
    TIMS can be upgraded to meet business requirements and address user
    performance concerns by leveraging more current, web-based, user-
    friendly technologies together with existing tools already within the
    Department. BOEMRE should carefully consider factors such as speed,
    performance requirements, and cost-effectiveness.

22. Implement a Bureau-wide certificate or accreditation program for
    inspectors. Consider partnering with BLM and its National Training
    Center to establish a Department oil and gas inspection certification
    program, with training modules appropriate to the offshore environment as
    needed.

23. Develop a standardized training program similar to other Department
    bureaus to ensure that inspectors are knowledgeable in all pertinent
    regulations, policies, and procedures. Ensure that annual training keeps
    inspectors up-to-date on new technology, policies, and procedures.

24. Consider developing more subject matter experts in each of the various
    types of inspections within district offices.

25. Expand, to the greatest extent practicable, the sources from which
    BOEMRE draws inspector applicants and identify incentives to recruit and
    retain inspectors. Reevaluate whether inspectors can participate in the
    Student Loan Repayment Program and are eligible for hazard pay.

26. Develop Individual Development Plans for inspectors designed to achieve
    career advancement strategies. Such strategies should promote sound
    succession planning and foster employee development and satisfaction.

27. Develop and implement clear rules of engagement for operations that are
    transparent to all entities, including both BOEMRE and industry
    personnel, particularly relating to industry exerting pressure on inspectors.

28. Further develop ethics rules and training that reflect the unique
    circumstances of working in BOEMRE, with opportunities for questions
    and discussions.



                                                                               76
  29. Require inspectors to disclose relationships and previous employment with
      industry on a form similar to a financial disclosure form that is updated as
      conditions change or at least annually.*

  30. Ensure that BOEMRE managers support and enforce established rules of
      engagement and ethics rules.

Chapter 3: Enforcement
  31. Reevaluate the full range of enforcement actions, including INCs, civil
      penalties, and lease suspensions and cancellations to determine whether
      enforcement actions deter violations. For example, BOEMRE should
      consider sanctions for repeat offenders.

  32. Ensure that inspectors have the appropriate technology, resources, and
      management support for the issuance and defense of INCs.

  33. Evaluate INCs to determine which, if any, are appropriate for an automatic
      assessment of a fine and how much the fine should be. BOEMRE’s
      evaluation could be informed by a review of other regulatory agencies.

  34. Develop a public notification policy for INCs issued.

  35. Review the civil penalty process to determine whether a civil penalty case
      can be completed effectively in less than the nearly one-year time period
      now afforded to assess a civil penalty.

  36. Evaluate the rates and the structure of the civil penalty program and, if
      necessary, initiate the legislative or rulemaking process to ensure that
      penalties are appropriately tied to the severity of the violation.

  37. Evaluate the use of facility shut-in authority to ensure its appropriate and
      effective utilization.

  38. Require on-site follow-up inspections, or other forms of evidence, to
      document that operators have made the required corrections to INCs.

  39. Improve the INC documenting and tracking system so the status and
      resolution of INCs are fully documented, properly tracked, and corrected.

  40. Consider updating the INC form and other operational reporting
      documents to require operators to certify under penalty of perjury that all
      information submitted to the Bureau is accurate.

  41. Consider changing the approval process for returning a facility or
      component to operation by limiting who has approval authority, creating a
      system for tracking approvals and disapprovals, and ensuring that all staff

                                                                                  77
     who have approval authority have access to and properly use the tracking
     system.

Chapter 4: Environmental and Cultural Resources
  42. In future institutional structures implemented through the ongoing
      reorganization, separate the management of environmental functions from
      those of leasing and development to ensure that environmental concerns
      are given appropriate weight and consideration.

  43. Explore and encourage other processes, policies, and incentives that
      promote a culture of balanced stewardship and evaluate existing policies
      and practices that may impede the ability to achieve this balance.

  44. Consider creating a review panel within BOEMRE to resolve all conflicts
      regarding information requests, mitigation determinations, and
      remediation efforts.

  45. Consider giving Environmental Section supervisory staff INC approval
      authority for issues related to the environmental regulations they oversee.*

  46. Review the adequacy of access rights to TIMS and the training of
      environmental staff in its use.*

  47. Consider dedicating inspectors for environmental compliance.*

Chapter 5: Enhanced Accident Investigations
  48. Consider restructuring the accident investigation program to dedicate
      additional full-time staff with appropriate training in accident
      investigations.

  49. Require operators to provide detailed descriptions of certain types of
      accidents (e.g., fires) to determine whether accident investigations or other
      corrective actions are necessary.

  50. Develop and implement internal procedures to fully conduct and
      document accident investigations, including planning, basic investigation,
      evidence gathering protocol, and supervisory review.

  51. To supplement existing ethics requirements and recusal policy, create an
      independence policy for all accident investigation personnel that includes
      certifications signed by investigation personnel, prior to commencing
      work on a particular investigation, affirming the absence of any conflicts
      of interest.

  52. Explore the utility of an independent peer review process for panel
      investigations.

                                                                                78
  53. Establish a system to track investigation recommendations for
      implementation and verify that they have been implemented.

Chapter 6: Safety
  54. Develop a dynamic regulatory framework that provides for interim and
      continuing guidance to operators, ensures the proper use of NTLs,
      addresses gaps and inconsistencies within BOEMRE regulations, and
      reconciles related Bureau regulations.

  55. Ensure that BOEMRE has sufficient staff with the expertise needed to
      review and vet standards developed by industry group subject matter
      experts to determine the extent to which those standards should be used in
      developing regulations.

  56. Identify actionable items from the TA&R studies, track concurrence and
      implementation of those items, document rejected recommendations, and
      consider broader opportunities for the TA&R Program.

  57. Consulting with technical experts, conduct further analysis of the effects
      of water depth on equipment and operations, and determine the adequacy
      of current regulations.

  58. Draft a new Memorandum of Agreement with the U.S. Coast Guard, EPA,
      and other interested agencies, requiring appropriate participation of all
      parties in the review of OSRPs and any related drills or exercises.

  59. Develop a review process for OSRPs that incorporates risk-based and
      other strategies to ensure that all critical information and spill scenarios
      are included in the OSRP by operators, and are comprehensively reviewed
      and verified by BOEMRE and/or other appropriate officials.

  60. Determine and ensure technical expertise necessary for staff to conduct
      comprehensive reviews of OSRPs.

  61. Ensure that inspectors verify the availability and presence of all
      equipment, including third-party equipment, listed in OSRPs prior to
      conducting inspections.

  62. Develop policies and procedures to require detailed descriptions of
      containment and control measures for the source of possible spills and
      determine where to incorporate these measures, either in the OSRP or
      elsewhere in the permitting process.




                                                                                79
63. Review calculations for worst-case discharges, with input from the Flow
    Rate Technical Group, and make recommendations for changes to 30
    C.F.R. 254.47, as appropriate.

64. Conduct additional research on containment and control measures to
    determine appropriate requirements for containing oil discharge at the
    source.




                                                                             80
Appendix 2: Objective, Scope, and
Methodology
Why We Performed This Review
As a result of the April 20, 2010 explosion and sinking of the Deepwater Horizon
offshore drilling rig and subsequent oil spill, the Secretary requested that the OIG
examine whether deficiencies existed in MMS policies and practices regarding
safe offshore operations (MMS is now BOEMRE). In addition, the Department’s
OCS Safety Oversight Board requested that OIG answer a set of questions
regarding BOEMRE’s regulations and oversight of offshore operations.

Objective
The objective of our work was to determine if specific deficiencies in BOEMRE
policies exist that need to be addressed to ensure that operations on the OCS are
conducted in a safe manner protective of human life, health, and the environment.

Scope
The scope of this inspection covers BOEMRE’s Federal offshore Oil and Gas
Program areas related to the drilling and production permit approval process,
inspection and enforcement activities, environmental protection, post-accident
investigations, and safety. The period addressed by this inspection was FY 2006-
2010.

Methodology
We gained a basic understanding of the oil and gas program for the purpose of
identifying potential weaknesses that need correction. To accomplish the
objective, we:

   •   Reviewed applicable laws, regulations, policies, and procedures to become
       familiar with the requirements of the Oil and Gas Program.
   •   Interviewed managers, supervisors, and other personnel at BOEMRE’s
       regional and district offices to learn how their Program responsibilities
       were actually carried out (a limited amount of records were reviewed as
       necessary to confirm oral statements).
   •   Conducted two online surveys of BOEMRE employees to obtain input
       from personnel directly involved in the Oil and Gas Program.
   •   Analyzed permit, inspection, enforcement, accident investigation, and
       other data obtained from BOEMRE.

The primary inspection team consisted of personnel from OIG Investigations and
OIG Audits, Inspections and Evaluations. Representatives of the Department‘s
Energy Reform Team assisted.


                                                                                  81
The review was conducted from May through September 2010. The following
sites were visited: BOEMRE’s National Office, Herndon, VA; Gulf of Mexico
OCS Regional Office, New Orleans, LA; District Offices in Houma (Bourg),
Lafayette, Lake Charles, and New Orleans, LA, and Lake Jackson (Clute), TX;
Pacific OCS Regional and District Offices in Camarillo, CA; and Alaska OCS
Regional Office in Anchorage, AK.

We conducted this review in accordance with the “Quality Standards for
Inspections” adopted by the Council of the Inspectors General on Integrity and
Efficiency.




                                                                                 82
      Report Fraud, Waste,
      and Mismanagement
             Fraud, waste, and mismanagement in
            government concern everyone: Office
           of Inspector General staff, Departmental
            employees, and the general public. We
               actively solicit allegations of any
           inefficient and wasteful practices, fraud,
                and mismanagement related to
            Departmental or Insular Area programs
                and operations. You can report
               allegations to us in several ways.



By Mail:            U.S. Department of the Interior
                    Office of Inspector General
                    Mail Stop 4428 MIB
                    1849 C Street, NW
                    Washington, D.C. 20240


By Phone:           24-Hour Toll Free                   800-424-5081
                    Washington Metro Area               703-487-5435


By Fax:             703-487-5402


By Internet:        www.doioig.gov
